<html>
<title> - RECOMMENDATIONS OF THE BLUE RIBBON COMMISSION ON AMERICA'S NUCLEAR FUTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  RECOMMENDATIONS OF THE BLUE RIBBON COMMISSION ON AMERICA'S NUCLEAR 
                                 FUTURE 

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 1, 2012

                               __________

                           Serial No. 112-109



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-441 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana              Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 _____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               TAMMY BALDWIN, Wisconsin
JOSEPH R. PITTS, Pennsylvania        G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLES F. BASS, New Hampshire       FRANK PALLONE, Jr., New Jersey
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              HENRY A. WAXMAN, California (ex 
CORY GARDNER, Colorado                   officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     4
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8

                               Witnesses

Lee Hamilton, Co-Chair, Blue Ribbon Commission on America's 
  Nuclear Future.................................................    10
Brent Scowcroft, Co-Chair, Blue Ribbon Commission on America's 
  Nuclear Future.................................................    12
    Prepared statement of Mr. Hamilton and Mr. Scowcroft.........    16
Lake H. Barrett, President, L. Barrett Consulting................    65
    Prepared statement...........................................    68
D. Warner North, President and Principal Scientist, NorthWorks, 
  Inc............................................................    73
    Prepared statement...........................................    75
Martin G. Malsch, Partner, Egan, Fitzpatrick, Malsch & Lawrence, 
  PLLC...........................................................    99
    Prepared statement...........................................   101
Edwin Lyman, Senior Scientist, Global Security Program, Union of 
  Concerned Scientists...........................................   113
    Prepared statement...........................................   115
Thomas A. Schatz, President, Citizens Against Government Waste...   126
    Prepared statement...........................................   128
David A. Wright, President, National Association of Regulatory 
  Utility Commissioners..........................................   136
    Prepared statement...........................................   138


  RECOMMENDATIONS OF THE BLUE RIBBON COMMISSION ON AMERICA'S NUCLEAR 
                                 FUTURE

                              ----------                              


                      WEDNESDAY, FEBRUARY 1, 2012

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:37 a.m., in 
room 2322, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Whitfield, Bass, 
Latta, McMorris Rodgers, Harper, Cassidy, Gardner, Barton, 
Green, Butterfield, Barrow, Matsui, Capps, and Waxman (ex 
officio).
    Also present: Representatives Kinzinger and Inslee.
    Staff present: Charlotte Baker, Press Secretary; Dave 
McCarthy, Chief Counsel, Environment and the Economy; Andrew 
Powaleny, Assistant Press Secretary; Tina Richards, Counsel, 
Environment and the Economy; Chris Sarley, Policy Coordinator, 
Environment and the Economy; Brett Scott, Staff Assistant; 
Peter Spencer, Professional Staff Member, Oversight; Lyn 
Walker, Coordinator, Administrator/Human Resources; Alex 
Yergin, Legislative Clerk; Jeff Baran, Minority Senior Counsel; 
Alison Cassady, Minority Senior Professional Staff Member; and 
Caitlin Haberman, Minority Policy Analyst.
    Mr. Shimkus. We are going to call the hearing to order and 
welcome our first panel. And I will begin with my 5-minute 
opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Good morning, and welcome to our first Environment and the 
Economy Subcommittee hearing of 2012. Today I am pleased to 
kick off the subcommittee's agenda on a topic many of you know 
I am very engaged with and passionate about: the disposal of 
high-level nuclear waste. As a result of our successful defense 
programs, and as contractual obligations to taxpayers and 
consumers who have invested billions of dollars and counting, 
we, as a Federal Government, have responsibilities to 
permanently dispose of nuclear waste. This debate has lead us 
here today to discuss a report from the Blue Ribbon Commission 
on America's Nuclear Future and how its recommendations might 
aid in moving the existing law forward while staying ahead of 
the curve into the future.
    As I read the report over the last few days and--I actually 
did read the report--I agree with many of the Commission's 
recommendations. I too think a new organization tasked with 
nuclear waste management is needed. I agree access to the funds 
nuclear utility ratepayers and taxpayers have invested should 
not be squandered by political brinksmanship. And as I have 
been talking about each week on the House floor, I agree that 
Yucca Mountain as designated by law remains fixed on the table 
as a solution to the nuclear waste debate.
    In the wake of the administration's interference with the 
independent technical evaluation of the repository of Yucca 
Mountain, the resulting Blue Ribbon Commission found what many 
of us have long have been saying about the failed management of 
nuclear waste. The Commission's report correctly advises 
control of the nuclear waste fund be removed from the purse 
string of political ideologues and entrusted to a new 
organization dedicated solely to implementing the waste 
management program set forth under law.
    It is clear the dysfunction within and between the Nuclear 
Regulatory Commission and the Department of Energy has rendered 
the current waste management structure ineffective. We simply 
cannot burden our children with 65,000 and growing metric tons 
of nuclear waste simply because of a bureaucratic failure to 
carry out the law of the land.
    Yucca Mountain remains the most shovel-ready, thoroughly-
studied geological repository for spent nuclear fuel, there are 
possibly no other 230 square miles in the world that have been 
examined and reexamined more by America's greatest scientific 
minds than Yucca Mountain.
    Three decades of study, $15 billion and quite frankly, 
common sense support the current requirement to secure high-
level nuclear waste on Federal property, under a mountain in a 
desert. While the extensive research and millions of man-hours 
by expert scientists and engineers have proven we can safely 
and securely store nuclear waste at Yucca Mountain, this debate 
is also about jobs.
    The Department of Energy estimates continuing construction 
at Yucca Mountain would employ 2,600 workers, with about 1,100 
of them being additional jobs and new jobs. Additionally, DOE 
estimates an almost equal number indirect jobs bringing the 
total to 7,000 jobs in Nevada, a State currently suffering from 
13 percent unemployment. In addition to job creation, this 
would help stimulate the struggling Nevada economy.
    In 2000, research done by the University of Nevada, Las 
Vegas, concluded the Yucca Mountain project contributed nearly 
200 million to the Nevada economy that year and similar amounts 
in 2001. The reality is Yucca Mountain not only fulfills our 
commitment to the American taxpayers to secure high-level 
nuclear waste as required by law, but makes a commitment to the 
people in Nevada to turn around a struggling economy and 
expanding infrastructure and creating jobs.
    I would like to welcome the co-chairs of the Blue Ribbon 
Commission, a former colleague of ours, Congressman Lee 
Hamilton, it is great to see you and welcome back. And 
Lieutenant General Scowcroft. I would say beat Navy, and also 
Air Force, but you might have twisted loyalties there. I look 
forward to their thoughts on implementing some of the 
recommendations and how they fit into current law.
    I also want to thank our second panel of witnesses for 
being here today to give us their outside perspective on the 
report, as those who have been a part of the process for many 
years, their input will be invaluable as we consider how to 
utilize the Commission's recommendations. With that, I finish 
my opening statement and I would like to recognize the ranking 
member, Congressman Green from Texas, for 5 minutes.
    [The prepared statement of Mr. Shimkus follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing entitled ``Recommendations of the Blue Ribbon 
Commission on America's Nuclear Future.'' Many of us on this 
subcommittee have been anxiously awaiting the completion of the 
Blue Ribbon Commission's report since they were tasked with the 
responsibility a couple of years ago. As a long-term supporter 
of nuclear energy, because this is a cleaner energy 
alternative, I had the opportunity to visit countries like 
France and Sweden to learn about their nuclear energy programs. 
I accompanied our committee colleague, Representative Murphy on 
a CODEL to France and Sweden last year and were able to see how 
French and Swedish reprocess and store their nuclear waste.
    The issue of long-term and interim nuclear waste storage 
and disposal is a very important topic in this country and 
there is no doubt we are well behind our foreign counterparts 
when it comes to disposing of nuclear waste.
    This subcommittee's examining the issue of nuclear waste 
storage in past hearings. These hearings have primarily been 
focused on Yucca Mountain and the actions of the Nuclear 
Regulatory Commission, and we have yet to examine other issues 
or alternatives for permanent nuclear storage and disposal.
    I had the opportunity to visit Yucca Mountain last year 
also with Chairman Shimkus, and I have supported the use of 
Yucca Mountain in the past and still believe it is a terrible 
waste of taxpayer dollars to have this $12 billion facility 
sitting unused in the desert.
    While I am supportive of using Yucca Mountain as a 
permanent nuclear waste disposal facility, it is clear that 
certain political realities must be accepted in the here and 
now, and we have been fighting a battle to use Yucca since it 
was first proposed in 1987 and have not been able to come to a 
resolution. The issue of Yucca Mountain may not be resolved in 
the near future, but perhaps there will come a time we can move 
past the political logjam, and if we do, we can revisit 
utilizing Yucca Mountain in the future. Regardless one fact is 
certain, the U.S. Has a very real and serious impending issue 
at hand with regard to the storage and disposal of nuclear 
waste, and it must be dealt with sooner rather than later.
    Currently spent fuel and reprocessed waste is stored at 
nuclear plants in 30 sites scattered across the U.S., local 
communities are spending millions of dollars to ensure the 
safety and protection of our nuclear waste. Even with these 
current sites, we are still producing nuclear waste and that 
waste will need to be stored for at least 1,000 years. If we 
begin reprocessing our nuclear waste, it still will not solve 
or eliminate our problem. I strongly support research and 
developing of reprocessing because it could, in the future, 
reduce the amount of the waste and it is not the ultimate 
solution, but it is not the ultimate solution of our nuclear 
storage problem.
    I would like to note that reprocessing spent fuel could be 
a job creator in this country. Research and development jobs 
are needed in the U.S. and we should be doing more in the 
reprocessing arena to foster job development as well as 
reducing our nuclear footprint. That is why I look forward to 
the testimony of Blue Ribbon Commission. I think it is 
important we learn how we can begin the process of finding one 
or more interim and alternative storage and disposal sites to 
Yucca Mountain. I am also interested in hearing the opinions of 
the Commission on creating a new organization dedicated to 
nuclear waste management, reprocessing investments in U.S. 
research and development for the workforce development, and 
legislative proposal to help access funds from the nuclear 
ratepayers for nuclear waste management.
    I want to commend the Blue Ribbon Commission for completing 
a report on time and producing a consensus document. In this 
Congress, it is impressive that all 15 members of the 
Commission signed the report. Additionally, I know they 
reviewed more than 1,000 comments and submitted the draft 
report and included several changes that are reflected in the 
final report. I also want to thank the witnesses for appearing 
today, and I look forward to your testimony. Thank you.
    Mr. Shimkus. The gentleman yields back his time. The 
chairman now recognizes the chairman emeritus, Congressman 
Barton, for 5 minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. I don't think I will 
take that time. It is good to see--I still call him Congressman 
Hamilton, but Dr. Hamilton and General Scowcroft, I have been 
around here long enough to remember when both of you were--when 
the Congressman was actually chairman of the Foreign Relations 
Committee in the House, and General Scowcroft was National 
Security Advisor to the first President Bush, so it is good to 
have you two gentleman still serving the public.
    On the Energy and Commerce Committee, I think we have 59 
members, only three of them served when the Nuclear Waste 
Policy Act in 1982 was passed, Mr. Waxman, Mr. Dingell, and I 
believe Mr. Markey. Mr. Hall, who is on leave from the 
committee on the Republican side, is the only Republican who 
was here then. I didn't get here until 1985.
    My first job as a White House fellow for President Reagan 
at the Department of Energy in 1981 was to brief the then 
Secretary of Energy, James B. Edwards, on the proposed Nuclear 
Waste Policy Act. They asked me to brief him because they 
thought if an Aggie could understand it and explain it, then 
anybody could. And so the technical experts spent a day 
explaining to me what they were trying to do, and then I had 15 
minutes to explain that to the Secretary of Energy.
    So I have been involved with this for a few years and it is 
a shame that we are still where we were basically then, and 
that is that we don't have a solution. And it is really not 
fair to you two gentleman or the other commissioners to expect 
you to pull nuclear waste depository rabbit out of a hat when 
we haven't been able to do it in the Congress for the last 30 
years. We are not here to name names, but if I had to name 
somebody who really put the fly in the ointment, I would say 
former Senator Bennett Johnson of Louisiana and Senator Trent 
Lott of Mississippi. They made a deal in the Senate to put it 
in Nevada over the objections of the Nevada delegation and the 
Nevada delegation pledged eternal opposition, and they meant it 
and that is kind of why we are here today.
    Gentleman, in your final report the Secretary of Energy you 
do speak of the importance of Federal relations and public 
confidence. You discuss how a continued delay to store the 
65,000 metric tons of inventory, which as Congressman Green 
pointed out, is growing is damaging America's standing in the 
world as a source of nuclear expertise, as a leader of global 
issues on nuclear safety, non proliferation and security. We 
have spent in the neighborhood of $15 billion building Yucca 
Mountain and don't have a whole lot to show for it. I think 
that is inexcusable.
    Dr. Peter Swift, who is the chief scientist for Yucca's 
lead laboratories, Sandia National Laboratory, has discussed 
how the technical basis for the Yucca Mountain repository has 
been developed by hundreds of scientists and multiple technical 
experts. He said, ``One of the main conclusions of these 
analysis is that the estimated releases of radiation doses to 
hypothetical future humans are well below the EPA and NRC 
standards.'' He goes on to say, there is sufficient technical 
basis for the Nuclear Regulatory Commission to issue a license 
authorizing construction of the facility. To kind of put that 
in layman's terms, he is basically saying we can continue to 
have debates about how many nuclear angels are dancing on the 
head of the pin, but there is basis to think that the current 
design is sufficient and safe and we should move forward.
    I do think that your report is going to help us in the 
political arena make a decision on what to do. I also believe 
that it is probably time to reform the Nuclear Waste Policy Act 
of 1982 incorporating some of the recommendations that you 
gentlemen and your other commissioners have made in the report. 
We do need to develop secondary geological disposal facilities. 
It is important to provide real access to the funds for the 
sole purpose of waste management.
    And last but not least, I think we do need to work to find 
opportunities to address recycling and new technologies by 
instituting legislation to make that possible.
    Again, gentlemen, thank you for your time and effort. I 
hope that your work will actually be used in a legislative 
fashion in the near future to reform the Nuclear Waste Policy 
Act and let's finally get going. With that, I yield back, Mr. 
Chairman.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the full committee, Mr. 
Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. In 1982, Congress 
passed the Nuclear Waste Policy Act, the Act sought to 
establish a fair and science-based process for selecting two 
nuclear fuel and high-level radioactive waste. Under this 
approach, no one State or locality would bear the entire burden 
of the Nation's nuclear waste. In the years that followed, the 
Department of Energy began evaluating a number of potential 
repository sites. Then in 1987, Congress made the decision to 
designate Yucca Mountain in Nevada as the sole site to be 
considered for a permanent geologic repository. There was no 
plan B. As the Blue Ribbon Commission explained, this decision 
was widely viewed as political and provoked strong opposition 
in Nevada where the legislation was poorly received.
    Ever since Congress decided to short-circuit the site 
selection process it established 5 years earlier, the State of 
Nevada, the majority of its citizens, have opposed the Yucca 
Mountain project. In 2002, President Bush recommended the Yucca 
Mountain site to Congress. Using the State veto procedures set 
forth in the Nuclear Waste Policy Act, Nevada then filed an 
official notice of disapproval of the site. Congress proceeded 
to override Nevada's veto by enacting a resolution that was 
marked up in this Energy and Commerce Committee.
    Twenty-five years after the 1987 amendments to the Nuclear 
Waste Policy Act, it is clear that this top-down, Federally-
mandated approach has not worked.
    The Department of Energy has terminated its Yucca Mountain 
activities. Last year, and again this year, Congress has 
provided no funding for Yucca Mountain, even the biggest 
advocates for Yucca Mountain in the Republican House have not 
acted to provide any funding. In light of the poor track record 
of the current top-down approach, President Obama directed 
Secretary Chu to charter a Blue Ribbon Commission to perform a 
comprehensive review of U.S. policies for managing nuclear 
waste and to recommend a new strategy. The Blue Ribbon 
Commission spent nearly 2 years conducting this review and its 
recommendations are timely.
    The Commission recommendations deserve our serious 
consideration. They raise a number of important policy 
questions, such as whether a new organization should be 
established to address the nuclear waste problem, how the 
nuclear waste funds should be used, and whether one or more 
centralized storage facilities should be developed in addition 
to one or more geologic repositories.
    Answering these questions requires an open mind and a 
willingness to move past the narrow obsession with Yucca 
Mountain. It is time to move forward and today's hearing is a 
good first step. I thank our witnesses for being here today to 
share their views and I thank them for their contribution and 
their work on this Commission, which I hope will be helpful to 
us. Thank you.
    Mr. Shimkus. The gentleman yields back his time.
    Mr. Waxman. I yield back my time.
    Mr. Shimkus. Then what I would like to do, asking unanimous 
consent, is I will put 10 minutes on the clock and we will let 
you all give your opening statements. This is a very important 
period of time, and so I don't know how you plan to split, 
maybe 5 minutes each. So we will put 10 minutes on and then go 
from there, and just don't be worried about the clock too much. 
I would now like to recognize our former colleague Mr. Hamilton 
for as much time as he may consume.

STATEMENTS OF LEE HAMILTON AND BRENT SCOWCROFT, CO-CHAIRS, BLUE 
         RIBBON COMMISSION ON AMERICA'S NUCLEAR FUTURE

                   STATEMENT OF LEE HAMILTON

    Mr. Hamilton. To allow us to come before.
    Mr. Shimkus. Still having trouble.
    Mr. Hamilton. Is that on now?
    Mr. Shimkus. Yes.
    Mr. Hamilton. Thank you. I ask unanimous consent of course 
that the full testimony be submitted.
    Mr. Shimkus. Without objection, so ordered.
    Mr. Hamilton. We are very grateful to you and appreciate 
the leadership this subcommittee and the full committee have 
shown over a period of years on a lot of our biggest challenges 
in the Nation. Certainly, the topic that we present to you 
today, managing nuclear spent fuel and high-level nuclear 
waste.
    It is a rare privilege for me to have the opportunity to 
work with General Scowcroft. By any measure, he is one of the 
great Americans, and a distinct privilege for me to be with 
him, but also with the other 13 members of the Commission 
appointed by Secretary Chu. They really were an outstanding 
group, talented and dedicated in every way, and their 
professionalism contributed to the unanimity of the report.
    What I will do is take the first part of our testimony, and 
General Scowcroft will take the second part, and we will take 
up the full 10 minutes, perhaps a little more.
    As has been stated here several times this morning already, 
the nuclear waste management program is at a real impasse, it 
has been in deep trouble for decades. One or two of you in this 
room are old enough to remember when Congressman Mo Udall 
stepped on the floor of the House of Representatives 30 or 40 
years ago, I am not sure when, and said to us shame on us 
because we haven't solved the problem of what to do with 
nuclear waste. That was decades ago, and here we are and the 
process has about completely broken down. It has been decades 
going along this current path and it has led to controversy, 
litigation and protracted delay, and, most of all, not a 
solution.
    This is a serious failure of the American government, and 
it has had real consequences which Chairman Emeritus Barton has 
already referred to. Our failure to come to grips with this 
problem has meant that we are slowing down for sure, damaging 
the prospects of a very important potential energy supply, 
nuclear energy. It has damaged our State-Federal relationships 
very sharply, and it has caused the public to lose confidence 
in the Federal Government's competence to solve the problem, 
and it has damaged America's standing in the world and its 
leadership. We cannot really claim to be a leader in nuclear 
power if we can't solve one of the fundamental problems that 
exist with nuclear power what do with the nuclear waste, and of 
course, we haven't solved that.
    Likewise, the whole inability to solve the problem has been 
very costly. It has been costly to the ratepayers who have to 
continue to pay for nuclear waste management, a solution that 
has not yet been delivered. It has been costly to communities 
who have been unwilling hosts of long-term nuclear waste 
storage; it has certainly been costly to the American 
taxpayers, who face billions of dollars now every year in 
liabilities as a result of our failure to meet our 
responsibilities here.
    And underlying all of this is really an obligation, an 
ethical obligation, if you will, to avoid burdening future 
generations with finding a safe, permanent solution for 
hazardous materials that they did not create, we created them. 
And we are about ready to hand over to them the problem we 
created without a solution unless we move forward promptly.
    So there is a real urgency here, 65,000 metric ton 
inventory of spent nuclear fuel spread across the country, 
growing at the rate of about 2,000 metric tons per year, and I 
think all of us can agree that the status quo is not 
acceptable.
    Now we have eight key elements of our recommendations, they 
are integrated, in other words, they are packaged in our point 
of view, all are necessary to establish a truly nuclear 
national nuclear waste management system. I will talk about 
three and General Scowcroft will talk about the others. I will 
try to be quite brief.
    The first one, of course, is a new consent-based approach 
to siting future nuclear waste management facilities. You, in 
some of your opening statements, referred to this. We have had, 
over a period of years, a top-down forced solution to the 
problem and it has not worked. In a sense, we are faced with a 
choice in this Nation, and the choice is we can continue along 
to fight the same battles we have been fighting for decades 
now, 30 or more years, with no conclusion, or we can step back 
and try to chart a new course, and that is what we are trying 
to recommend to you with this consent-based approach.
    The top-down forced solution, trying to force a solution 
over the objections of State and local communities is not 
efficient, it takes longer, costs more, has lower odds of 
ultimate success. The approach we recommend is adaptive, it is 
staged, it is consent-based. It is based on a review of 
successful siting processes in the United States, the WIPP 
project in New Mexico, and of course, in several other 
countries around the world, Spain, Finland and Sweden among 
them. We believe this type of consent-based approach has the 
best chance of succeeding and building the confidence that is 
needed to get these controversial facilities through to 
completion.
    The second recommendation we make is to say that a new 
organization has to be created here to handle the waste 
management program, and it has to be empowered with the 
authority to act, and it has to have the resources to succeed. 
The DOD has wrestled with this problem for a long time, for 
more than 50 years. That record has not inspired confidence, 
created a lot of criticism, we heard an awful lot of criticism 
during the 2 years in the way in which that program has been 
handled. The Commission has concluded, thus, that a new 
institutional leadership is needed and we specifically 
recommend a congressionally-chartered Federal corporation. 
There are other organizational structures that the committee 
may want to consider, we looked at some of those, but we think 
this is best suited to provide the stability and the focus and 
the credibility that you need in order to put a waste product--
waste management system in place.
    The new organization to succeed would have to get the waste 
program back on track, and it will need a substantial degree of 
implementing authority and a sure access to funding. 
Throughout, of course, there will have to be rigorous oversight 
by the Congress of this new organization and the appropriate 
government agencies.
    The third point I want to make, the third of our 
recommendations is that access to the funds that the nuclear 
ratepayers are now paying, are now providing for the purpose of 
waste management must be available to this new organization so 
that it has the resources to move forward. The 1982 Nuclear 
Waste Policy Act, which has already been referred to, had a 
polluter-pay theme, or funding mechanism, to ensure that the 
full cost of disposing of commercial spent fuel would be paid 
by the utilities, or their ratepayers obviously, with no impact 
on taxpayers or the Federal budget.
    For a variety of reasons, and for many reasons really, this 
fund has not worked as intended. A series of executive and 
congressional actions has made the annual fee revenues, which 
are approximately $750 million a year, and the unspent $25 
billion balance in the fund effectively inaccessible to the 
waste program. Instead, the waste program must compete today 
for funding, and is, therefore, subject to exactly the budget 
constraints and uncertainties that the fund was created to 
avoid. We think that situation has to be remedied right away to 
allow the program to succeed. And we make several 
recommendations as to how that should be done. For the balance 
of our testimony, I turn to General Scowcroft.
    Mr. Shimkus. You are recognized, General Scowcroft.

                  STATEMENT OF BRENT SCOWCROFT

    Mr. Scowcroft. Thank you very much. Mr. Chairman, may I 
just say that it is an honor for me to participate on an issue 
so deeply in the national interest, and it is a delight to work 
with my co-chairman, former Congressman Lee Hamilton, whom I 
have knowledge and worked with for decades.
    The fourth element of our recommendations are prompt 
efforts to develop one or more geological disposal facilities. 
The conclusion that disposal is needed in deep geologic 
disposal is the scientifically-preferred approach has been 
reached by every expert panel that has looked at this issue, 
and by every other country that is pursuing a nuclear waste 
management program.
    Moreover, all fuel processing or recycle options either are 
already available or under active development at this time 
still generate waste streams that require a permanent disposal 
solution. We believe permanent disposal will very likely also 
be needed to safely manage, at least some portions of the 
commercial spent fuel inventory.
    The Commission recognizes the current law establishes Yucca 
Mountain in Nevada as the site for the first repository for 
spent fuel and high-level waste. Provided the licensed 
application submitted by DOE meets relevant requirements. Our 
Blue Ribbon Commission was not chartered as a siting 
commission; accordingly, we have not evaluated Yucca Mountain 
or any other particular location as a potential site for the 
storage or disposal of spent nuclear fuel and high-level waste. 
Nor have we taken a position on the administration's request to 
withdraw the license application. We simply note that 
regardless of what happens with Yucca Mountain, the U.S. 
inventory of spent nuclear fuel will soon exceed the amount 
that can be legally in place at this site until a second 
repository is in operation.
    So under current law, the United States will need to find a 
new disposal site, even if Yucca Mountain goes forward. We 
believe the approach set forth here provides the best strategy 
for assuring continuing progress regardless of the fate of 
Yucca Mountain.
    The fifth element of our recommendations are efforts to 
develop one or more consolidated storage facilities. And here, 
let me point out the difference between storage and disposal. 
Storage is a temporary condition, disposal is a permanent 
condition, although retrievability is a possible issue there.
    Developing consolidated interim storage capacity would 
allow the Federal Government to begin the orderly transfer of 
spent fuel from reactor sites to safe and secure centralized 
facilities, independent of the schedule for opening and 
operating a permanent repository. The arguments in favor of 
consolidated storage are strongest for the so-called stranded 
spent fuel, that is, fuel from shutdown plant sites of which 
there are nine presently across the country.
    Stranded fuel should be first in line for transfer to a 
consolidated facility so these plant sites can be completely 
decommissioned and put to other beneficial uses.
    Looking beyond the issue of today's stranded fuel, the 
availability of consolidated storage would provide valuable 
flexibility in the nuclear waste management system that could 
achieve significant cost savings for both ratepayers and 
taxpayers when a significant additional number of plants are 
shut down in the future. It can provide emergency backup 
storage in the event spent fuel needs to be moved quickly from 
a reactor site and would provide an excellent platform for 
ongoing R&D to better understand how storage systems currently 
in use at commercial and DOE sites perform over time.
    The sixth element of our recommendations are prompt efforts 
to prepare for the eventual large scale transport of spent 
nuclear fuel and high-level waste to consolidated storage and 
disposal sites when such facilities become available.
    The current system of standards and regulations governing 
the transport of spent fuel and other nuclear materials has 
functioned very well, and the safety record for past shipments 
of these types of materials is excellent. That being said, past 
experiences in the United States and abroad and extensive 
comments to this Commission indicate many people fear the 
transport of nuclear materials. Thus greater transport demands 
for nuclear materials are likely to raise new public concerns.
    In order to deal with these concerns, while ensuring the 
highest level of transport safety, the Commission believes that 
State, Tribal and local officials should be extensively 
involved in transportation planning and should be given the 
resources necessary to discharge their roles and obligations in 
this area. Given that transportation represents a crucial link 
in the overall storage and disposal system, it would be 
important to allow substantial lead time to assess and resolve 
transportation issues well in advance of when materials would 
be expected to actually begin shipping to a new facility. 
Historically some programs have treated transportation planning 
as an afterthought. No successful programs have done so.
    The seventh recommendation we have is support for advances 
in nuclear energy technology and for workforce development. 
Advances in nuclear energy technology have the potential to 
deliver an array of benefits across a wide range of energy 
policy goals. The Commission believes these benefits, in light 
of the environmental and energy challenges the United States 
and the world will confront this century, justify public and 
private sector support for RD&D on advanced reactor and fuel 
cycle technology.
    In the near term, opportunities exist to improve the safety 
and performance of existing water reactors and spent fuel and 
high-level waste storage transportation and disposal system. In 
the longer term, the possibility exists to advance game-
changing innovations that offer potentially large advantages 
over current technologies and systems.
    Additionally, the Commission recommends increased support 
for ongoing work by the NRC to develop a regulatory framework 
for advanced nuclear energy systems. Such a framework can guide 
the design of new systems in lower barriers to commercial 
investment by increasing confidence that new systems can be 
successfully licensed.
    The Commission also recommends expanded Federal joint labor 
management and university-based support for advanced science 
technology, engineering and mathematics training to develop the 
skill workforce needed to support an effective waste management 
program, as well as viable domestic nuclear energy. The 
stalemate we have faced over the years has paid enormous cost 
in the workforce and skills.
    At the same time, the Department of Energy and the nuclear 
energy industry should work to ensure that valuable existing 
capabilities and assets, including the critical infrastructure 
on human expertise are maintained.
    On our last recommendation, is an observation really, 
active U.S. leadership is essential in international efforts to 
address issues of safety nonproliferation and security. As more 
nations consider pursuing nuclear energy or expanding their 
nuclear programs, U.S. leadership is urgently needed on issues 
of safety, particularly in light of events at Fukushima, 
nonproliferation, security and counterterrorism issues.
    Many countries, especially those just embarking on 
commercial nuclear power development, have relatively small 
programs and they lack the regulatory and oversight resources 
available to countries with more established programs. 
International assistance may be required to ensure they do not 
create disproportionate safety, physical security and 
proliferation risks.
    In many cases, mitigating these risks will depend less on 
technological interventions than on the ability to strengthen 
international institutions and safeguards while promoting 
multilateral coordination and cooperation.
    From the U.S. perspective, two further points are 
particularly important, first, with so many players in the 
international and nuclear energy and policy arena, the United 
States will increasingly have to lead by engagement and by 
example. Second, the United States cannot exercise effective 
leadership on issues related to the back end of the fuel cycle 
so long as its own program is in disarray. Effective domestic 
policies are needed to support America's international agenda.
    To conclude, the problem of nuclear waste may be unique in 
the sense there is wide agreement about the outlines of the 
solution, put very simply, we know what we have to do, we know 
we have to do it, and we even know how to do it. Experience in 
the United States and abroad has shown that suitable sites for 
deep geologic repository for nuclear waste can be identified 
and developed. The knowledge and experience we need are in 
hand, and the necessary funds have been and are being 
collected.
    The core difficulty actually remains what it has always 
been, finding a way to site these inherently controversial 
activities--facilities and to conduct the waste management 
program in a manner that allows all stakeholders, but most 
especially, host communities, States and tribes to conclude 
that their interests have been adequately protected and their 
well-being enhanced, not merely sacrificed and overridden by 
the larger interest of the country as a whole.
    We believe the conditions for progress are arguably more 
promising than they have been in some time, but we will only 
know if we start, which is what we urge the administration and 
the Congress to do without delay.
    We thank you for allowing us to meet with you today. And we 
intend to submit a full version of our testimony for the 
record, and we look forward to your questions.
    Mr. Shimkus. Thank you, I thank my colleagues for sitting 
patiently.
    [The prepared statement of Mr. Hamilton and Mr. Scowcroft 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Shimkus. I think it was very important. You both have 
earned the ability to speak for as long as you want, based upon 
your service to this country. So thank you. Now I would like to 
recognize myself for the first 5 minutes.
    I did go through the report and the advisory committee 
charter and all the--who actually told the Commission not to 
consider Yucca Mountain? Was it a statement by any one 
individual or--
    Mr. Hamilton. We had a statement from Secretary Chu.
    Mr. Shimkus. So it was Secretary Chu who said do not 
consider Yucca Mountain in the Blue Ribbon Commission report?
    Mr. Hamilton. I will quote him precisely. ``What I don't 
want the committee to be doing is just spending time and saying 
by looking at past history was Yucca Mountain a good decision 
or a bad decision, and whether it can be used as a future 
repository.'' He followed that up by saying to us, ``This is 
not a citing commission.'' And then he reiterated that in a 
letter to us.
    Mr. Shimkus. Great, thank you. I have a lot of questions so 
I am going to try to be pretty brief. The Commission did not 
evaluate and take a position on the technical suitability of 
Yucca Mountain; is that correct?
    Mr. Hamilton. That is correct.
    Mr. Shimkus. The Commission did not take a position 
regarding the request to withdraw the license application for 
Yucca Mountain; is that correct?
    Mr. Hamilton. That is correct.
    Mr. Shimkus. The Commission did not evaluate the 
possibility of public acceptance of Yucca Mountain should the 
NRC complete and provide a positive safety evaluation; is that 
correct?
    Mr. Hamilton. That is correct.
    Mr. Shimkus. I want to underscore this, because you address 
a lot on this consent-based approach, right. It is all through 
the report.
    Mr. Hamilton. Yes.
    Mr. Shimkus. It is hard to get to a final consent-based 
approach when we are stopped from funding the final scientific 
report. Don't you think a final scientific report might help 
educate the locals and develop a consent-based approach?
    I am not trying to be tricky, but having scientific--the 
final report on a suitability of a site, wouldn't that be 
helpful to develop a consent-based approach?
    Mr. Hamilton. Well, our--we have to be very clear here as I 
think we have been that we are not taking--have not taken a 
position on Yucca, did not study it, were not asked to study 
it.
    Mr. Shimkus. But the question is----
    Mr. Hamilton. Yes, having said that, obviously evaluating 
that experience can teach us a lot.
    Mr. Shimkus. Yes, but just generally, if there is a 
scientific report due on a site, should that be finished in 
helping develop a consent-based approach of whether that site--
don't you think the local community would like to see the final 
scientific study?
    Mr. Hamilton. Well, I suspect the answer to that question 
carries a lot of weight with regard to Yucca, and it is 
impossible really to divorce the question from that context.
    Mr. Shimkus. Always a politician, you can't get away from--
I will just move on, you understand--is it true that the 
Commission's recommendations could be implemented with Yucca 
Mountain's development?
    Mr. Hamilton. Yes.
    Mr. Scowcroft. Yes.
    Mr. Shimkus. Nothing in this report forecloses Yucca 
Mountain as a potential suitable site, correct?
    Mr. Scowcroft. Correct.
    Mr. Shimkus. Now, let me go--up on the chart there, I want 
to talk about this debate that you had in this report on 
locality. When I read the report, it was like kissing your 
sister, you know, I mean, there is really not meat in some of 
these specific issues of how to solve some of these problems. 
So that is the State of Nevada. Hit the next slide. That is the 
Federal land. Hit the next slide. And that square is 
approximately the size in Finland of their disposal site. Now, 
based upon that, which in the local community in that square 
said, yes. Based upon that, who would be local?
    Mr. Scowcroft. Well, that is a very good question.
    Mr. Shimkus. One that I came up with myself. Very good.
    Mr. Scowcroft. One of the problems is the definition of 
consent, and it is especially true in our Federal system. And 
while Secretary--Mr. Hamilton described the Spanish, the Finns 
and the Swedes as having solved this problem, they don't have 
exactly the same kind of jurisdictional issues that we have.
    Mr. Shimkus. Let me go to finish this. My time is running 
out. So I would argue that the Federal Government is a local 
entity here, the Federal Government, we are the locals, we own 
the land.
    Mr. Scowcroft. We own the land.
    Mr. Shimkus. Then go to the next. I think that is Nye 
County. They support Yucca Mountain. We have a commissioner 
back here, I saw him, you probably know him, Gary Hollis, from 
Nye County. We have their report saying we support this.
    Next slide, next slide, next. OK, and then the counties are 
popping up, their names Esmerelda, Mineral, keep going, keep 
going. OK, all these localities have endorsed the siting of 
Yucca Mountain, and I am sure they testified in front of you. 
There is a lot more, I will have time to go with the second 
panel. But I think it is safe to say that because one U.S. 
Senator doesn't want the site, that is not speaking for the 
locals, and I yield back the balance of my time.
    I would like to recognize Mr. Green for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and we can spend a lot 
of time, and I think we will with the second panel on consent 
on the State and local community. I was out there and I met 
with all those County commissioners, a number of them and they 
are very supportive. It is a beautiful area but not a lot of 
people out there. I guess the people are in Las Vegas and Reno 
and Nevada. I guess from my experience when I was in Sweden and 
looked at Sweden had built a prototype of a deep facility, much 
more advanced even their prototype. And we asked the folks 
there, is this where ultimately--oh, no, this is our 
experimental facilities because that region and whatever they 
call them in Sweden stayed or local community would not have 
agreed to it if they thought it was a permanent site.
    Now, maybe 20 years from now or whatever they may change 
that on the national government can make that, but consent is 
always tough, because that is why in the 1980s, I assume 
Congress just made the decision.
    But let me get to some recommendations on your panel. And 
first of all, I want thank you for appearing before the 
committee and thank all the other commissioners for producing a 
really good report, I think. A couple issues I want to talk 
about. The report stated believes there is enough funding in 
the nuclear waste fund to take care of all the activities 
related to the siting, possibly two new waste disposal 
facilities not including Yucca Mountain, as well as one more 
interim facility.
    Right now the nuclear waste fund contains about $27 
billion, which seems like enough money, but once you include 
funding for a new independent organization, which I think might 
be what we need to move off dead center and all the other 
logistical details surrounding the siting, could we face a 
problem at that nuclear waste fund would not have enough 
funding? And how did you come up with the conclusion that the 
current stream or waste fund dollars recover all the costs 
associated with your recommendations?
    Mr. Hamilton. Well, we were very sensitive, of course, to 
the whole question of the impact on the deficit and the Federal 
spending issue. And by the very nature of these 
recommendations, precise cost estimates really are not 
possible. We think that the costs are something that can be 
managed within current spending streams, if you would, within 
the Department of Energy and perhaps other places.
    In other words, the waste management recommendations can be 
implemented with existing revenue streams that are already 
dedicated for that purpose, as nearly as we can estimate. But 
we do not have precise estimates. We call, for example, as you 
know, and several of you have cited for a new organization, 
that is going to cost some money. We didn't try to make 
estimates of that. And there are other things here that would 
require expenditures. So we don't have exact information of it.
    It is impossible to estimate the cost of the nuclear waste 
program without knowing the specific sites that are going to be 
developed. And of course, we don't that at this point.
    Mr. Green. Well, now, Lee, I only have a minute and a half 
left, did the Commission discuss anything what would happen if 
we didn't have it? My next question, I want to get to the 
legislative changes, because that is something our committee 
has jurisdiction on. You recommend some of the legislative 
changes allowed to proceed to the independent organization, can 
you explain any of those, or if you have a summary of those, 
can you provide them to the committee? I know its in the 
report.
    Mr. Hamilton. Yes, we have a summary on the page, Roman 
numeral VIII of the executive summary. We have a chart on 
proposed legislative changes that I think can sum it up. What 
we say, broadly speaking, is there are six areas that you have 
to look at: A new facility siting process, consolidated interim 
storage facilities, broadening support the jurisdictions 
affected by transportation, establishing a new waste management 
organization, establishing access to dedicated funding, and 
promoting international engagements. So there is a lot for the 
Congress to do here and the specifics are pretty well spelled 
out within the report.
    Mr. Green. My last question is and you heard my opening 
statement about reprocessing. It doesn't really reduce the 
footprint very much, but it also creates, and again, I was in 
France in 1998, and then just last year again and saw their 
reprocessing site there in Normandy expand substantially. That 
is almost an interim storage facility for them. Did the 
Commission talk at all about reprocessing as an option?
    Mr. Scowcroft. Well, we did look at reprocessing and we are 
in favor of research and development going forward, but no form 
of reprocessing eliminates the issue of waste. And so, you 
know, we use only about 1 percent of the energy value of the 
nuclear fuel we use now. Certainly we can do better I think, 
but we just recommend that R&D go forward to see if we cannot 
improve the whole nuclear fuel cycle to make it more effective, 
but whatever what happens, we don't see the possibility of 
eliminating the need for waste facilities.
    Mr. Green. Thank you for letting me run over time, Mr. 
Chairman.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the chairman of the Energy and Power Subcommittee, 
Mr. Whitfield, for 5 minutes.
    Mr. Whitfield. Thank you very much. I also want to thank 
you all for appearing here today, and also thank you for the 
hard work that you have put forward in coming up with some 
suggestions for the U.S. Congress. I must say to you, and 
certainly none of this is your fault, but I was reading the 
testimony of Mr. Schatz, who is the President Citizens Against 
Government Waste, and in his testimony, he says the Yucca 
Mountain project owes its ultimate demise to years of delays, 
manipulation and obstructionism by Senate majority leader Harry 
Reid, and the exigencies of election-year politics.
    I for one--I am not really going to have much of a 
question, but I think the American people would be in an uproar 
of rage if they knew all the facts surrounding what has 
happened since 1983 when the Nuclear Waste Policy Act was 
signed by President Reagan. In 1987, DOE conducted studies of 
nine potential repository sites. Congress selected Yucca 
Mountain soon after that.
    In 2002, following extensive evaluation of the site by DOE 
in its National Laboratories, the Secretary of Energy 
determined Yucca Mountain was suitable for repository 
development and recommended that the President approve the 
site. The President did approve the site, the Congress approved 
the site, and June 3rd, 2008, after additional scientific and 
engineering studies on development and design, DOE submitted a 
license application to the Nuclear Regulatory Commission 
seeking construction authority for the repository. The NRC 
docketed the license application in September 2008 and directed 
the body to conduct a review within 4 years looking at all of 
this in preparation to issue a license to construct.
    And before that 4 years was up, Secretary Chu filed a 
motion within NRC's construction authorization board to 
withdraw the license application, and then the board denied the 
DOE's motion to withdraw the application. And then Chairman 
Jaczko delayed and delayed and so the whole thing has fallen 
apart.
    And Congressman Hamilton, you made the comment, this is a 
serious failure. I think it is one of the most significant 
failures of the American policy on an energy issue ever. You 
also said that it damaged the American standing in the world 
and I agree with that completely. And then when you look on top 
of that, that we spent $15 billion on this site, the Department 
of Justice spent $188 million in legal fees when some of the 
104 nuclear power plants filed the lawsuits because the 
government could not meet its contractual obligation to take 
possession of the material, and now DOE is saying well, the 
ultimate liability legally may be 20 billion, but some of the 
people in the energy field, the nuclear energy field say the 
ultimate liability may be 50 billion.
    So I think the American people have every right to be 
totally upset and irate about what has happened in this 
instance which clearly shows pure politics by the President, by 
the Secretary of Energy by Mr. Jaczko, and by Senator Harry 
Reid.
    And I hope, I agree with Chairman Shimkus, I hope, since 
you all were not asked to look at Yucca Mountain or render any 
opinion on Yucca Mountain, I hope that there is some way we can 
continue at Yucca Mountain myself, because it would be a vast 
waste of human resources, financial resources if we cannot do 
it. Having said that, I just want to thank you all for this 
report to the Secretary of Energy, it is quite comprehensive, 
but I, for one, feel it is a travesty that we find ourselves in 
this situation today and I yield back my 5 seconds.
    Mr. Shimkus. The Chair appreciates the gentleman's 
question. And now I would like to recognize my friend 
Congressman Capps from California for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman, and I appreciate very 
much both of you being here today and your testimony, and also 
the work of the Commission, the work you have done to 
investigate these issues which are particularly relevant to my 
State of California, given the logistical challenges we face in 
the storage and transport of spent fuel, as well as more 
pressing seismic concerns, which really have yet to be fully 
addressed.
    As you know, three of California's civilian power reactors 
are located directly on the Pacific Rim: Humboldt Bay, San 
Onofre, and in my Congressional district, Diablo Canyon. At 
present, Diablo Canyon and San Onofre, both of which reside in 
highly active seismic zones, are scheduled for decommissioning 
between 2022 and 2025. And both are currently storing high-
level radioactive waste on the site, both in pools as well as 
dry cask. New seismic unknowns are also emerging, such as the 
discovery in 2008 of the Shoreline fault less than a mile from 
the Diablo Canyon spent fuel storage casks. I would note that 
the current seismic analysis is still incomplete on that fault 
system.
    Further, the NRC acknowledges the special seismic 
circumstances of California's nuclear reactors in its draft 
generic EIS for license renewal of nuclear plants. I know that 
you agree that placing radioactive waste in the presence of 
seismic forces is an issue we must treat with utmost care. So 
before I get to some questions on reprocessing, which I would 
like to do, I would want to ask you to share with us any 
general comments on the topic of storing spent fuel in dry 
casks as opposed to pools in seismically-active sites. For 
example, over the past couple of years the Commission has been 
active, what did you hear or learn about this issue if you 
would share, please?
    Mr. Scowcroft. We have looked at that issue, and we are 
examining it further in the light of the Fukushima----
    Mrs. Capps. Yes.
    Mr. Scowcroft [continuing]. Which could be very valuable in 
analyzing some--it is not clear for example on the Fukushima 
how much of the problem came from the earthquake and how much 
from the tsunami, and you don't have the tsunami problems that 
Japan has in California.
    Mrs. Capps. No.
    Mr. Scowcroft. That is--there has been research under dry 
cask and it is very positive, but for the first 5 years after 
the fuel is removed, it needs to be in wet storage, after that 
it can be put in dry storage, and one of the things we would 
like to see is the temporary storage places to evaluate what 
happens under longer conditions of storage and security and 
earthquakes and so on, to that. But the reports that we got 
were that dry storage is a very promising way to go.
    Mrs. Capps. Thank you.
    Mr. Hamilton. Congresswoman Capps, you probably saw the 
article in The Wall Street Journal this morning about you 
Nuclear Regulatory Commission's actions with regard to 
earthquake damage in present nuclear reactors in this country, 
they are obviously worried about it and they are thinking of 
further requirements, apparently further studies. Fukushima 
happened as we were in process, and obviously it turned our 
thoughts as it did all persons interested in nuclear power to 
the question of safety. What we ended up recommending, because 
there is so many complications here was that the National 
Academy of Sciences conduct a thorough review of the lessons 
learned from Fukushima, I think they are going to do that, it 
may already be underway. There are others that can speak to 
that----
    On the safety and security of these current storage 
arrangements, we simply didn't have the technical expertise or 
the time, frankly, to get into that in great detail.
    Mrs. Capps. Thank you. Mr. Chairman, I know this is going 
to go over a little bit, but I would like to pose my question 
on reprocessing options, and if there is no time to answer 
verbally they can get back to me.
    And just to the point of your saying there hasn't been time 
currently and more studies need to be done, one concern that 
many of my constituents have is over the relicensing process 
while these needs for further study continue, which poses a 
challenge because the licensing process is under way, at least 
in Diablo Canyon. But I am also very concerned about the 
reprocessing situation in light of all these with the 
earthquake fault possibilities. And my understanding is that 
reprocessing options produce radioactive streams, waste 
streams, that would need to be disposed of, is that correct?
    Mr. Scowcroft. Yes, that is correct.
    Mrs. Capps. So----
    Mr. Scowcroft. No kind of reprocessing at present that we 
know can eliminate the need for waste disposal.
    Mrs. Capps. And does that underscore your statement to a 
previous question that this is not going to eliminate the need 
for a permanent geologic repository?
    Mr. Hamilton. That is correct. It is simply premature to 
make a judgment now based on the technical information that is 
available as to whether or not you proceed with recycling and 
reprocessing, so-called closing the nuclear fuel cycle.
    Mrs. Capps. Would you be willing to estimate how much time 
and money it would take to redevelop and commercialize a 
processing technology that could fundamentally alter the waste 
management challenge we face? Do you see what posing those two 
challenges sort of simultaneously to--this is all within a time 
frame. What kind of resources and time would it take to do 
this?
    Mr. Hamilton. I just don't think we are competent to answer 
that question. Listen, that is the reason we recommend going 
forward with more research and development here. There are so 
many open-ended questions that need to be resolved, and that is 
one of them.
    Mr. Shimkus. The gentlelady's time is expired.
    In part of the report you have spent nuclear fuel, but you 
also have nuclear waste. And they do talk a lot about the 
Department of Defense waste in Hanford and all that stuff that 
was designed to go to Yucca Mountain, too. So there is other 
waste than just spent nuclear fuel that is to go to these 
depositories?
    Mr. Hamilton. Yes.
    Mr. Shimkus. Now I would like to recognize Congressman 
Barton for 5 minutes.
    Mr. Barton. Thank you, Chairman. We have two hearings going 
on. We have the FDA Commissioner downstairs in the Health 
Subcommittee, so that is why some of us are yo-yoing back and 
forth. I want to pick your two gentlemen's brains on this 
consent-based approach that you talk about in your 
recommendations. Is there a technical evaluation of sites 
before you go through the consent-based process, or could 
anybody--just take an extreme case, if New York City wanted to 
apply, could they apply without any technical evaluation of 
their site at all?
    Mr. Scowcroft. I think the notion is that there would, 
first of all, be a technical evaluation of what general areas 
are suitable so that we didn't go down this consent process 
with something that technologically was not accurate.
    Mr. Barton. So you would put out some sort of a technical 
requirement list and if you felt like you met the technical 
requirements and got approval based on technical merit, 
whatever that was, then there would kick in this consent-based 
process?
    Mr. Scowcroft. Right. That is basically it. Although even 
that could be iterative. A community could come up and say we 
want to have a site, and then a quick evaluation could show 
that the terrain is not suitable.
    Mr. Hamilton. We recommend that the EPA develop generic 
disposal standards and supporting regulatory requirements. Very 
early in the siting process that has to be done.
    Mr. Barton. You are recommending the EPA do it----
    Mr. Hamilton. That is right.
    Mr. Barton [continuing]. And not NRC? You just set your 
program back 10 years.
    Mr. Hamilton. I think under current law EPA would have that 
responsibility. I stand to be corrected on that. That is my 
understanding of that. But anyway, the Federal Government 
should set the standards, whether it is EPA or DOE or somebody 
else.
    Look, this consent-based process, I don't want to give the 
impression we think it is easy. It is a very complex process. 
You can't sit down and spell out in detail exactly what has to 
happen. This is going to be a matter of negotiations between 
the parties. There has to be flexibility, transparency, 
patience, consultation, all of these things in order to make it 
work. In practical terms what I think you are talking about 
here is encouraging communities to volunteer if they want some 
of these sites, and clearly some of them do. There are a lot of 
jobs created when you put these sites in place. And it would 
also involve the entity that has the responsibility for 
organizing this system of what you do with nuclear waste. They 
may want to approach a community and provide incentives for 
that community to put forward a proposal. You can't spell out 
how all that is going to go. It is going to be a very elaborate 
process, just as was followed in the New Mexico case where we 
have successfully sited a waste facility.
    Mr. Barton. Well, I have a question here that the staff has 
provided that I want to ask. While your group has been 
conducting your study, your committee, the Department of Energy 
has been dismantling the waste disposal office in DOE. How do 
you go forward given what the Department of Energy has done in 
their nuclear waste office cutback and their abandonment, at 
least at the secretarial level, of the Yucca project?
    Mr. Scowcroft. Well, we recommend creating a new entity, a 
Federal corporation, if you will, to take over those 
responsibilities for siting construction.
    Mr. Barton. Do you fund it with the funds that are being 
collected now? Is that correct?
    Mr. Scowcroft. Yes.
    Mr. Hamilton. But there is an important point here. I don't 
know how long it will take to create a new organization. You 
would know.
    Mr. Barton. Longer than you think.
    Mr. Hamilton. I suspect you are right. You are at least 
talking a year, maybe 2 years, maybe more. It is going to take 
some time. Now, we don't want everything to come to a dead stop 
while we are sitting around waiting for a new organization to 
be built. And the DOE is going to have to move forward with a 
number of the recommendations, I think, and begin a lot of the 
process that we identify in the report with regard to siting 
and with regard to transportation and all the rest of it so 
that we can keep this process moving. We don't want a dead stop 
here for 2 or 3 years while we wait to develop an organization.
    Mr. Barton. My time is expired. Mr. Chairman, I have one 
more question. Do you gentlemen and the other commissioners of 
your Blue Ribbon Commission expect the Congress to act 
legislatively on your recommendations in this Congress? In 
other words, put a bill on the President's desk in the next 10 
months?
    Mr. Hamilton. We don't anticipate that. We would be 
delighted if you did it, but we recognize the realities of it. 
Look, we recommend----
    Mr. Barton. You should say you do expect it.
    Mr. Hamilton. We recommend a new organization, but we 
recommend it only in very general terms. And the Congress would 
have to fill in a lot of the details on that. So it is going to 
take you time, and we would want you to take time to look at 
that. Do I personally expect that you would have it done in 
2012? The answer is no.
    Mr. Scowcroft. But it is one of our priority 
recommendations.
    Mr. Barton. It is an honest answer. Thank you, Mr. 
Chairman.
    Mr. Shimkus. The gentleman's time is expired. The Chair 
recognizes the gentlewoman from California, Ms. Matsui, for 5 
minutes.
    Ms. Matsui. Thank you, Mr. Chairman. And I want to thank 
both of you for being here today. Thank you for your service. 
Both of you have been called upon many times to deal with 
challenging issues, and this is certainly the latest of them. 
Commercial nuclear power's future I think depends a lot on what 
we are talking about today, what we do at the back end, 
particularly in light of Fukushima, which occurred almost a 
year ago, and that really brought to fore some of the problems 
inherent in nuclear power. And I am very concerned because I 
believe unless we take care of this back end we are going to 
have difficulties moving forward, and I don't want to wait for 
another Fukushima again.
    But at any rate, what I would like to kind of delve into, I 
really looked at your consent-based siting and I think that is 
a good way to go forward with. I think that is probably 
something we would have to really look at in a positive manner. 
I want to kind of drill down a little bit more because you 
mentioned that there are nine commercial shutdown nuclear power 
plant sites in the U.S. One of them is in my district, the 
Rancho Seco power plant, which is owned by my local utility, 
the Seco Municipal Utility District, which is a wonderful 
utility, one of the top utilities in the country. Now, the 
spent fuel is still stored at this site, so the question of how 
we move forward to find a safe place to dispose of this spent 
nuclear fuel is important to my district and to my 
constituents.
    Now, as you report, sites at all of these places the spent 
fuel is monitored and well guarded, and they are, and is not 
thought to present immediate safety or security concerns. But 
the presence of this spent fuel at these sites is costly and 
really prevents the use of those sites for more economically 
productive uses that would benefit the communities.
    So my question is, being very parochial about this, but I 
have to be because I think it is an example of what lies ahead, 
I would like to know whether the Commission regards a 
recommendation of taking the stranded fuel from shutdown 
reactors first as a must-do task regardless of the ultimate 
decisions that are made on permanent disposal and reprocessing.
    Mr. Scowcroft. I think the short answer is yes.
    Ms. Matsui. OK. And you also, too, Mr. Hamilton.
    Mr. Hamilton. Yes. We think the strongest case for 
consolidated storage facilities can be made with regard to the 
so-called stranded fuel. But we also think that that 
consolidated storage facility is necessary for a variety of 
reasons, safety is a big one, but it has advantages of 
flexibility, it creates a backup storage capability, it is a 
very excellent platform for research and development. There are 
a lot of reasons why it is important to move this spent fuel 
from these sites where it now is to consolidated storage. That 
is an important one, stranded fuel.
    Ms. Matsui. All right. That is great to know. On this 
consent-based, on the siting aspect, we are also having to look 
at the transport related activities, too. I would imagine 
obviously where the sites are located would obviously sort of 
be a determinant to a certain degree what kind of transport 
activities would have to occur.
    Do you foresee going through the same process with the 
transport related activities, and many communities would be 
along the way on the transport, transportation aspect, would 
you look at this being more of a consent-based way of looking 
at this as far as the transportation aspect of it also?
    Mr. Hamilton. Well, in our original draft report we did not 
address the question fully of transportation. In the final 
report because of a lot of feedback we had on the draft report 
we elaborated on transportation. We think it is a very big 
large issue. The record of transporting spent fuel in this 
country is very good. I don't think there has ever been a 
really serious accident. However, if you create consolidated 
storage facilities, several of them around the country, two or 
three, you are obviously going to increase the amount of 
transportation necessary to get to those storage facilities.
    Ms. Matsui. Right.
    Mr. Hamilton. All of us who have represented constituents 
know that they are uneasy about transportation of nuclear waste 
to the point that many communities are very--many people are 
very fearful of it. So I think an enormous amount of work has 
to be done to educate people about the safety of the process. A 
lot of planning has to be done, a lot of preparation has to be 
done, before you get to the point of major transportation of 
this fuel. We have really got a psychological hurdle to get 
over, I believe.
    Ms. Matsui. So in essence then, though, the siting and the 
transportation will have to be considered at the same time. 
There might be some wonderful sites, but the transportation 
aspects of it might be negative.
    Mr. Hamilton. Absolutely, yes, indeed. It is a very 
important part of our recommendations. If you cannot assure 
people that you can transport this stuff safely you are going 
to lose the battle.
    Ms. Matsui. Thank you very much.
    Mr. Shimkus. The gentlelady's time is expired. I would just 
add, too, I think part of your report talked about the fund 
money going to developing and build out transportation systems, 
which is also I think a very valuable part of what you have 
done.
    Now the Chair recognizes the gentleman from Louisiana, Mr. 
Cassidy, for 5 minutes.
    Mr. Cassidy. Hi, gentlemen. I am privileged to be in front 
of the two of you. I am struck in your report that you are even 
pessimistic about the ability of a closed nuclear fuel cycle to 
make a difference right now, and you mention that there are 
concerns about the merits in commercial viability. You know 
more about this than I, which is why I am asking the questions 
and you are answering. But don't I know that European countries 
and perhaps Japan have already implemented closed fuel cycles 
and that in turn reduces waste by a quarter.
    Now, first I will--that said, why would you--but your 
statement is that you are concerned about the commercial and 
scientific merits. So knowing that it is being done but knowing 
that you have this concern, how do you reconcile the two?
    Mr. Scowcroft. Well, I would say basically the notion is 
that recycling is done for a variety of reasons. And in talking 
with the experts on it no one was able to say that reprocessing 
in order to reduce the amount of waste at the present time was 
economically practical.
    Mr. Cassidy. Now, I have read something by the CEO of 
AREVA, the French concern that does nuclear, they claim that 
now they reduce waste down to a quarter of what the waste would 
be with their reprocessing. Now, is that hyperbole or is that 
rooted in fact?
    Mr. Hamilton. Well, what came through to us I think was 
that, in listening to the experts, and I think neither the 
General nor I qualify as experts here, is that there are just 
enormous uncertainties that exist about the merits and the 
commercial viability of different fuel cycles and the various 
options you would have, technological options. Given that fact, 
we didn't try to make a judgment there. We really weren't 
qualified to do that I think.
    Is reprocessing-recycling a possibility in the future? Of 
course it is. And you are exactly right, several countries are 
using it and are reducing, not eliminating, nuclear waste. But 
I don't think our nuclear community, however defined, is quite 
ready to say this is the future.
    Mr. Cassidy. That is also what I don't understand, Mr. 
Hamilton. Is it because of previous decisions made by, say, 
President Carter that we have not committed to reprocessing, or 
is there actually a technical barrier that our guys cannot 
embrace? I hate to think the French can do better engineering 
than we.
    Mr. Hamilton. I do not know the answer as to why we are 
where we are with regard to recycling. I think I am correct in 
saying that, and maybe the panel that follows us will be better 
qualified to answer that question, I think I am correct in 
saying that the nuclear community at this point is not ready to 
say that this is the best way to proceed reprocessing. Other 
options have to be explored.
    Mr. Scowcroft. I think that is correct. And most countries 
who recycle, like France, don't do it to save money. And 
recycling changes the nature of the waste stream. It also 
isolates certain materials like plutonium which then become a 
great security problem.
    Mr. Cassidy. Now, let me ask you, if--it does seem though 
if we are going to commit, as the President has committed, to 
building some new nuclear power plants, that one, it would be a 
logical time if we do have that technology to integrate the 
two. But secondly, if you have the potential to decrease your 
waste down to a fourth of what it would be, is it possible that 
we could use this fund set up to manage the waste to partly 
fund whatever Federal subsidies would be required, bond 
guarantees, et cetera, for the development, assuming that we 
could work out the issues of security for plutonium, et cetera?
    Mr. Scowcroft. Well, to be honest, we didn't get into that 
much detail about the allocation of funds. But we do recommend 
that recycling options as well as research on new reactor 
design continue, absolutely, without identifying the source.
    Mr. Hamilton. I think the 1982 act makes it clear with this 
polluter-pays concept behind it, that that is to be the funding 
mechanism to ensure that all costs of disposing of commercial 
fuel will be paid.
    Mr. Cassidy. So if there is an alternative mechanism that 
in the initial steps of disposal would decrease the volume 
significantly, theoretically at least, that would be within the 
kind of intent of the law?
    Mr. Hamilton. That would be my understanding of the law. I 
don't have the language of the law in front of me, but that 
would be my understanding.
    Mr. Cassidy. Thank you both. I yield back.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the gentleman from North Carolina, Mr. Butterfield.
    Mr. Butterfield. Thank you. Let me join Dr. Cassidy and 
others for their extraordinary service to our country. Thank 
you very much for coming back and thank you for your 
willingness to tackle this incredibly important issue. I also 
want to thank the other members of the Commission. All of you 
have worked so hard.
    As many of you know, I reside and represent a good portion 
of the great State of North Carolina. My State has a robust 
nuclear portfolio with nearly 30 percent of our electricity 
provided at relatively low cost by nuclear energy. However, the 
issue of waste disposal has been a concern, to put it mildly, 
for many years. Even before I came to Congress I was concerned 
about this, if for no other reason than it is expensive. North 
Carolinians don't like to lose $900 million of their money to 
what some people would call a worthless fund. Therefore, I want 
to see this body and the regulators take steps to move beyond 
the tired, unsuccessful battles of the past to something 
productive and with real milestones. That said, I have several 
questions about the report and hope that you can help me 
clarify some of this.
    I am intrigued by the idea of the consent-based approach to 
siting a facility. However, I am a little doubtful about it. My 
question is, what case studies, case studies, did the 
Commission review in consent-based siting that have worked in 
the past, and what lessons might be gleaned from those 
experiences?
    Either one of you may answer that.
    Mr. Hamilton. Well, the successful example in this country 
is the New Mexico plant, WIPP. One of the members of our 
Commission was Senator Domenici, who had a lot to do with that 
and of course could speak to it in great detail. But we 
consider that an example of consent-based siting. Several of 
the other countries, Sweden, Finland, Spain, have basically 
followed a consent-based process that has been successful.
    Mr. Butterfield. General, anything you could add to that?
    Mr. Scowcroft. No.
    Mr. Butterfield. Is it unlikely that a community, and one 
of my colleagues made reference to New York City, that might be 
an extreme example, but is it unlikely that a community might 
have 100 percent support for such a site? I think that is 
probably unlikely. How does the Commission think that we might 
measure the whole notion of consent?
    Mr. Scowcroft. That is one of the ambiguities in the term 
``consent-based,'' and you all have a lot of experience in how 
you determine consent. We think it has to be an iterative 
process. The chairman pointed out the differences between 
Nevada counties and Nevada State in terms of their attitude 
toward Yucca. So how do you determine consent? We have a 
section which discusses it in considerable length, but it is an 
imprecise process and we say it needs to be iterative.
    Mr. Hamilton. At the end of the day the parties have to 
reach an agreement; that is, consent. And so if you want a test 
as to whether or not you can get consent, the test is can the 
parties reach an agreement voluntarily amongst themselves, the 
parties being this new organization, local, State, tribal 
communities. So that is the key. But as I tried to suggest, 
this process is going to be complex, it is not something you 
are going to be able to predict ahead of time. The parties are 
going to have to work it out. But we think it has to have the 
characteristics we have spelled out in the report. It has to be 
adaptive, it has to be flexible, transparent, there has to be a 
lot of consultation involved, and there has to be a lot of give 
and take back and forth. But the test of consent will be can 
you reach an agreement.
    Mr. Butterfield. But you certainly mean more than 50 
percent?
    Mr. Hamilton. What is that?
    Mr. Butterfield. You simply mean more than 50 percent or a 
simple majority of the affected?
    Mr. Hamilton. I would think so. You are talking about a lot 
of different bodies here. You are talking about tribal 
governments, you are talking about State governments, local 
governments, county governments, city governments, there are 
all kinds of people, Federal Government, that can get into the 
act here and will because there is a lot at stake. And we don't 
suggest that process is going to come smoothly; it is going to 
take a lot of work and a lot of skill to negotiate these 
agreements.
    Mr. Butterfield. Thank you, gentlemen. You have been very 
kind. I yield back.
    Mr. Shimkus. The gentleman's time is expired. I now 
recognize the gentleman from New Hampshire, Mr. Bass, for 5 
minutes.
    Mr. Bass. Thank you, Mr. Chairman. And I thank you 
gentlemen for being here today. Thanks to the wonders of modern 
communication or the Internet, I would like to read you a brief 
paragraph from the Nashwood Telegraph, Monday, February 17, 
1986. I was a sophomore State legislator at the time. It says, 
not in my backyard you won't. Nobody wants a nuclear waste 
disposal site next door. Nobody wants a nuclear waste disposal 
site in their neighborhood. Nobody wants a nuclear waste 
disposal site in their town. Nobody wants a nuclear waste 
disposal site in their area. Nobody wants a nuclear waste site 
in their State. OK, that takes care of the United States. And 
then it goes on to discuss the fact that Hillsborough, New 
Hampshire, which is about 15 miles from my home, is not the 
right place to locate what is now Yucca Mountain.
    Having qualified myself there, I say to you that you have 
in your testimony, quote, that we need an explicitly adaptive, 
staged and consent-based process. And I know you have addressed 
that question to Mr. Butterfield most recently and understand 
the problems associated with that. It is my view that 27 
years--1986--27, is that right, 26, 27 years later we are where 
we are today, and it would be a shame if we had to go back to 
1986 again at the cost--you know, the torture that we would go 
through as a Nation to get to where we were in 1986, it would 
hardly be worth the cost, you know the benefit for that.
    My question for you gentlemen is do you have 
recommendations in your report as to what the DOE should do 
now? I understand that this report process, and so forth, has 
cost $5 million or $4 million. Do you have any specific 
recommendations to the Department of Energy for the short term, 
for short-term action?
    Mr. Scowcroft. Well, if I could make a comment on your 
general notion. What we determined in our research is that the 
approach we use, which is a top-down approach, you do it, 
hasn't worked. And in New Mexico with the WIPP plant and in 
Sweden and in Finland and approaching in Canada, the approach 
of consent, come to an agreement on it, show the advantages, 
make it worthwhile, is showing promise, and that is why we are 
recommending that approach to it.
    Mr. Bass. But I think you also recognize the fact that 
these nations have different governmental structures and 
cultures, and so forth, that make it easier for that.
    Mr. Scowcroft. No question about that.
    Mr. Bass. And I can tell you from personal experience that 
this is 1986. By 19--let's see, where are we in the 
presidential cycle? We are the first in the Nation primary. 
Every single candidate that came to New Hampshire had to vow on 
a Bible that they would never support a nuclear waste site in 
New Hampshire, otherwise they wouldn't get a single vote. I am 
just giving you the historical context here. That is the way 
our system is and that is how it works.
    Mr. Hamilton. We spell out in the 13th chapter of the 
report the actions that the DOE needs to take right now and in 
the future. I can read that to you but I don't think it is 
necessary to do it. We gave a lot of thought to your question 
as to what do you do now and what does the DOE have to do, what 
does the Congress have to do, and we tried to spell that out in 
one of the chapters of the report. That is not, incidentally, 
in the executive summary.
    Mr. Bass. Thank you. I would conclude by saying that I was 
taken by Chairman Shimkus' slide showing the level of consent, 
if you will, that exists today in the region. Knowing what this 
country has gone through to get where it is today not to 
consider this site and move forward on it I think is a terrible 
mistake. And I yield back.
    Mr. Shimkus. The gentleman yields back his time. Just for 
clarification to people who are watching us here, the rules of 
the committee say that if you are a member of a subcommittee 
then you get to ask questions first. We are joined by Mr. 
Inslee. He is going to patiently wait until his time to come. 
So I would now recognize Mrs. McMorris Rodgers. Are you ready?
    Mrs. McMorris Rodgers. No.
    Mr. Shimkus. Then I will turn to Mr. Harper for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. As I have listened to 
your testimony in going through this process, you know, and I 
guess your Commission work was what, about a 2-year----
    Mr. Scowcroft. Two years.
    Mr. Harper. Two years. And aren't you glad it is over?
    Mr. Scowcroft. Yes.
    Mr. Harper. But we certainly thank you for investing that 
amount of time in what is a very emotional subject. Of course I 
have to say the idea of forming anything new up here is 
anything less than inspiring. And so to think about forming 
some type of new agency or organization I am not sure that we 
can endure perhaps another dysfunctional group, but perhaps 
this is where you have landed.
    I would like to just read to you something that was put out 
by, that was said by the Nuclear Energy Institute, Edison 
Electric Institute, American Public Power Association, National 
Rural Electric Cooperative Association, the National 
Association of Regulatory Utility Commissioners, and the 
Nuclear Waste Strategy Coalition, what they said last week 
about Yucca Mountain. We continue to believe that the Nuclear 
Regulatory Commission's review of the DOE's license application 
for the proposed Yucca Mountain in Nevada repository should be 
completed to determine whether it is a suitable site. You know, 
your report says that we need a geologic repository.
    Do you agree or disagree with those groups that we ought to 
take advantage of these billions of dollars that have been 
spent so far on Yucca Mountain and find out if it is indeed a 
suitable or unsuitable repository.
    Mr. Hamilton. We----
    Mr. Harper. Do you want me to just move to the next 
question?
    Mr. Hamilton. Look, a commission was formed. We operated 
under a mandate and under rules, we followed those rules, and 
the rules were we were not going to get into Yucca.
    Mr. Harper. And certainly--but your duties are over, so I 
am asking the question. We have the beautiful report right 
here. So the question is should we with all the money, the 
billions of dollars that have been spent, should we not at 
least--does it not make sense to find out if it is indeed 
suitable or not?
    Mr. Hamilton. Let me respond this way, and this is not 
really a direct answer to your question, but I think it is a 
fair response. There has been a feeling here for 30 years or 
more that once the next election comes the results of that 
election will be so decisive that Yucca Mountain will be 
resolved one way or the other. It hasn't happened. It has not 
happened. Now, it may happen the next election. I don't think 
it is likely, but it could happen. And that is a possibility.
    Our view, however, is that we have now had 30, 40 years 
experience, and as a country we have not been able to reach a 
solution to the problem. You can blame whomever you want to. I 
suspect there is plenty of blame to go along, and we have heard 
some specific names just today. But the fact is that the 
process we are now following has not worked for whatever 
reason, and it continues to roll up huge costs for the American 
taxpayer. Liabilities explode into the future, and there are 
all kinds of damages to the American national interest.
    OK. We have to find a way forward. We have got to find a 
way forward to solve this problem. It could be the next 
election will solve it. I don't think it will, but it could be. 
It hasn't in the past. So we are operating on the assumption 
and the Commission that we had to try a new way forward and 
that is what we did.
    Mr. Harper. You put a lot of emphasis on the consent-based 
process----
    Mr. Hamilton. Yes.
    Mr. Harper [continuing]. On how to do, how someone should 
move forward on this. But it appears, certainly looking at the 
map that the chairman pulled up of local consent that is there, 
it met what appears to be that criteria, but yet someone else 
was able to intervene, whether that is the Senate majority 
leader or someone else. How do we get to the point of where we 
can actually make a decision on this? And I have to say Yucca 
Mountain has met that criteria yet it has been rejected. So my 
confidence level is not real strong, and my time is up, but it 
appears to me that we should complete this licensing process, 
get back on track and let's find out if indeed it is a suitable 
process.
    I thank you both for your time. I yield back, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Colorado, Mr. Gardner, for 5 
minutes.
    Mr. Gardner. I thank the chairman for the time. And thank 
you to the panel for being here and sharing with us your work, 
and certainly appreciate the work that you did. A couple of 
questions, and it has been touched on here a couple of times 
today already, and so I just want to maybe go into them a 
little bit further. So when you are looking for the most cost 
effective approach for new strategies that you discussed in the 
report, did you compare that to the time and cost to continue 
work to gain regulatory and public acceptance of Yucca 
Mountain?
    Mr. Scowcroft. No, we did not because we did not consider 
Yucca Mountain or any other site. We discussed a process. And 
going forward theoretically if our approach is accepted Yucca 
Mountain, Nevada can come forward and be evaluated on a consent 
basis like everybody else.
    Mr. Gardner. But obviously the money we have already put 
into Yucca Mountain is significant?
    Mr. Scowcroft. Oh, no question about that, no question 
about that.
    Mr. Gardner. Your testimony states that finding sites where 
all affected units of government, including the host State or 
tribe, regional and local authorities and host community, are 
willing to support or at least accept a facility has proved 
exceptionally difficult. That is a quote from the report. So 
how do we ensure that a unit of government remains supportive 
of or committed to accepting a repository?
    Mr. Hamilton. I don't think there are any guarantees here. 
Look, this process of siting, forget Yucca Mountain for a 
while, this process of siting is going to be a very difficult 
process. What we believe is that the Federal Government or any 
entity cannot force the decision down the throats of a local 
community, and that is exactly what the Congress has done.
    Mr. Gardner. I mean, I have----
    Mr. Hamilton. That won't work in our view.
    Mr. Gardner. I have 15 metric tons of nuclear waste in my 
district.
    Mr. Hamilton. How much?
    Mr. Gardner. Fifteen metric tons, which is stored for Fort 
St. Vrain, which is being managed by the Department of Energy 
in Colorado. If we were to go forward with Yucca Mountain, if 
we were to go forward with the repository, it would be a safer 
place for that than stuck at St. Vrain.
    Mr. Hamilton. Well, I don't know the conditions there 
obviously.
    Mr. Gardner. But in general isn't it better to have a 
repository than leaving it scattered across the country?
    Mr. Hamilton. We believe it is better to have consolidated 
storage facilities and a repository in place.
    Mr. Gardner. So we are more safe with a Yucca Mountain type 
facility than we are without it?
    Mr. Hamilton. We are more safe with consolidated storage 
and a sound repository.
    Mr. Gardner. And so how do we keep a party from later then 
refusing or somebody who is unable to perform under the 
agreement? Is there anything we can do under this analysis?
    Mr. Hamilton. Sure. First of all, you can ask communities 
to volunteer.
    Mr. Gardner. And if the community volunteers----
    Mr. Hamilton. And if you don't get it then you may have to 
offer some incentives to get the communities to accept the 
waste. There are a lot of advantages to accepting waste. You 
create a lot of jobs in a community. That is the New Mexico 
experience. So there are techniques that can be used to 
persuade, if you would, among them the ones that I mentioned.
    Mr. Gardner. And that leads I guess to another question. I 
have got ICBM sites in my district. And we are happy to have 
them part of our national defense. Jobs are created because of 
them. But what if we decided in Colorado that we no longer 
wanted those ICBMs there, would we have a choice, should we 
have a choice?
    Mr. Scowcroft. You know, I don't think that is really a 
question for the Commission as it is a question for you all. I 
mean, you are the custodians of the Federal system under which 
we live. I would point out that next door in New Mexico the 
WIPP plant has been extremely successful and the local 
communities are leasing land because they hope to expand their 
role. So it is not impossible to do because they have found it 
very worthwhile to have a disposal site in their district.
    Mr. Gardner. And I guess I would follow up with the 
findings of your report. What assurance or commitments do you 
have, conversations you have had with the administration that 
they will act on your recommendation?
    Mr. Scowcroft. We have had none.
    Mr. Gardner. OK. So this is a report that may just go into 
the Ethernet?
    Mr. Scowcroft. We were asked to produce a report and we 
have done the best that we are able to do.
    Mr. Gardner. So have you consulted with Secretary Chu about 
the potential next steps by the agency?
    Mr. Scowcroft. Oh, yes.
    Mr. Hamilton. We have reported to the Secretary our 
findings. We have discussed them at some length with him and 
his advisors. We have reported to the White House staff.
    Mr. Gardner. And what should we expect as a result of those 
reports?
    Mr. Hamilton. Well, they can speak for themselves. I 
believe they recognize, first of all, that we have a very 
difficult problem that needs to be solved, that we haven't 
found a way to solve it. And they take seriously our 
recommendations. I can't cite a single person within the 
administration who says I endorse all of your recommendations. 
Are they receptive to it? Yes. Have they asked a lot of 
questions about it? You bet they have. And that is the 
appropriate role for them and for you.
    Mr. Gardner. Have they given you a timeline?
    Mr. Shimkus. The gentleman's time is expired.
    Mr. Hamilton. Yes, we spell out a timeline in the report. 
We say for a consolidated storage facility 10 to 15 years, I 
believe, and for a repository 15 to 20. Those are guesses. But 
the point is that it is long term. This is not a problem that 
is going to be resolved in the next year or two.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the gentleman from Washington State, Mr. Inslee, for 
5 minutes.
    Mr. Inslee. Thank you, gentlemen, for your long public 
service. This is another step in that. We really do appreciate 
it. But coming from the State of Washington I have to say that 
I really am alarmed by the failure of public process and 
something that I just think is a disregard of the law in this 
instance that led to this Commission. And that is a serious 
issue. And that is serious language to use, but I think it fits 
this circumstance. We have seen NRC Chairman Jaczko order his 
Commission to shut down review of the Yucca application leading 
to further delays. And it is very, very troubling to me to see 
this very talented and dedicated Commission really directed 
from the start not to consider Yucca, which I believe to be the 
law of the United States of America. And you are not 
responsible for that, I want to make that very clear, as to 
where responsibility lies for this. But we have spent over $12 
billion and 30 years moving forward in Yucca, and now we are at 
this point where we have a commission that I liken to sort of 
the group that is scouting the best NBA--since Representative 
Hamilton is one of our great all-star basketball teams I will 
just use that metaphor. It is kind of like asking you to scout 
for the NBA and told whatever you do don't consider that 
Michael Jordan young guy. And I think that is the situation 
that we were in. And you can't just do a good scouting job and 
not take a look at that young number 23. And this really hits 
home in my State. We are home to the Hanford site, nine former 
nuclear reactors, we were a stalwart in the Cold War, and now 
we still have that residue in my home State and close to the 
Columbia River--53 million gallons of radioactive and chemical 
waste and 177 underground tanks at one time. We have been 
preparing and planning for Yucca for disposal since 2002. I 
have got thousands of my State people getting this ready to 
ship to Yucca and it is going to be all dressed up and no place 
to go. And I have been working on this since the mid-1980s to 
not see my State become a de facto interim storage in 
substandard conditions. So this is of great concern to me. And 
I am really concerned that if we do require, quote, a consensus 
it basically is going to require my State to become a de facto 
repository for these wastes through my grandchildren's, and I 
get a new one this week I hope, her lifetime. And I think that 
is the route we are on if we don't follow the law.
    So I guess the first question I have, and I just want to 
make clear, does anything in this report suggest in any way 
that Yucca would not be suitable to consider for scientific 
reasons?
    Mr. Hamilton. No.
    Mr. Scowcroft. No.
    Mr. Inslee. I appreciate that. And by the way, I appreciate 
your personal service. I think you have articulated the 
position of the Commission well and the limitations of your 
decision. This is kind of a difficult situation for you, and 
you have been in difficult situations before. But I guess 
looking to the future if we are unable to reach the consensus 
that you have suggested perhaps we should look for, does it 
effectively make the current situation in the places that now 
house the waste the de facto permanent storage sites, permanent 
in the foreseeable future? Isn't that a fair statement? If you 
share the view that I have that that consensus is going to be 
harder to find, then an obligation to follow the law which we 
have in place, doesn't it make these places de facto permanent 
sites?
    Mr. Hamilton. We visited Hanford. Those people were very 
gracious to us. And we had a hearing there. And I think all of 
the frustrations which you have expressed came out to us very 
strongly. And I don't criticize them in the least for thinking 
that they could become a permanent site because they have had 
it so long and the risks, as you have said, to the Columbia 
River and elsewhere are real. The frustrations in our inability 
to resolve this problem are huge. There isn't any doubt about 
that. And there are a lot of people who have very, very 
legitimate complaints. We listened to miles and miles of 
testimony expressing the frustrations people have with the way 
the Federal Government has handled the waste problem. And that 
is one reason we recommend a new organization, because we think 
the DOE can't do it, it has lost credibility on it. So the 
frustrations are there.
    The question is, however, what do you do, how do you get 
out of the box? It is the law, you are correct, that Yucca 
Mountain is the repository. The only problem is we can't 
enforce the law. That has not been a solution. It may be the 
law but we can't enforce it. OK. Is that a good thing? No, it 
is not a good thing. It is always good if you follow the law. 
But you can't. And you haven't been able to for 40 years. Now, 
you can sit around and hope that it is all going to be resolved 
if the next election breaks right. And that has been exactly 
the hope for 40 years and it hasn't worked.
    Now, we got a problem, we got a problem in this country 
that is very, very difficult to solve. We don't know if we got 
the answers here. We think we have got a good approach. And we 
think it is the only path on the table, if you would, to get us 
out of the box. And if you stand around and insist on Yucca, 
Yucca, Yucca, which people have been insisting on for a long, 
long time, but have not been able to pull it off, we think the 
result of that is an impasse, a failure to solve the problem. 
Where do you go? You can go for another 40 years and not solve 
the problem. We are trying to indicate a path forward. That is 
what we are trying to do.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the other Member from the great State of Washington. 
Cathy McMorris Rodgers is recognized for 5 minutes.
    Mrs. McMorris Rodgers. Thank you very much, Mr. Chairman. 
And I too just want to say thanks for your work and thanks for 
being here. Like so many, I have been in and out. And I kind of 
want to-- you know, coming from Washington State, we pay close 
attention to Hanford. And the part of the report that really 
suggests that a site like Hanford could become a de facto 
repository I think is what raises the greatest concern. And I 
would just--I would like to start by just asking what would 
you, what do you see is the future of Hanford then and what 
role do you see Hanford playing moving forward?
    Mr. Hamilton. Look, I think you have got to give those 
people in Hanford some hope. It is exactly as Mr. Inslee said, 
they are so frustrated now because no progress has been made on 
this. The problem is getting worse and they have every right to 
be discouraged, frustrated and mad. What hope do we give them? 
The hope is that if you adopt our resolutions they will have 
the hope, a real one, of establishing a consolidated storage 
disposal--consolidated storage entity within 10 or 15 years, 
say. That is a rough guess. Now, that is something they haven't 
had. And it gets them out of the feeling that they are going to 
be permanently dealing with this stuff. We think the process we 
have set forward gives them real hope, a genuine hope, which 
they don't have today under present law.
    Mrs. McMorris Rodgers. I guess what that approach ignores 
is the consent decree that has already been agreed upon with 
the Federal Government and a lot of concerns that have been 
raised about the location of Hanford next to the Columbia River 
and an agreement that was put in place that said we were going 
to move that waste off site and the importance of moving that 
waste off site. And so that is what we would concede to be the 
concern. And I am not sure that the fears and the anger will go 
away by simply just saying, OK, in 15 years----
    Mr. Hamilton. Well, you are exactly right about that. Those 
fears--you can't wave a magic wand here, you can't undo the 
sins of the past, they are done, they are in place. All you can 
try to do is correct the problem. And that is what we are 
trying to do. Now, if you got a solution, and I am not pointing 
this to you directly, a better way to solve this problem, we 
are certainly open to it.
    Mr. Shimkus. If the gentlelady would yield, I would suggest 
a solution would be for the administration to follow the law as 
written. With due respect to my colleagues, we understand that 
there is a 1982 Waste Policy Act, we have 1987 amendments to 
that, we have votes. You want to talk about consent, Mr. 
Hamilton. Consent was decided here in Congress by numerous 
votes, whether that is the vote to fund the science study, 
which we had 297 Members of the House. We throw out the word 
Congress as--you know, Congress consists of two Chambers. The 
House has historically consistently spoken in support of Yucca 
Mountain.
    Mr. Hamilton. That is right.
    Mr. Shimkus. And what is interesting on the legislation to 
address the Nevada veto, that was a 306 to 117 vote. And do you 
know what the United States Senate did? They voice voted it, 
they voice voted it. So my question--and we are going to hear 
in the next panel some comments about it. This isn't a failure 
of the science or the studies. And I would reject the premise 
that we have failed. My stated position is this President and 
this majority leader have failed to comply with the law, and 
that is why unfortunately they have asked you to spend a lot of 
good time, effort and energy covering their rear ends on this, 
and that is unfortunate.
    I yield back to my friend.
    Mrs. McMorris Rodgers. Thank you very much, Mr. Chairman. 
And I would just say I am hopeful that the courts are actually 
going to rule in favor of enforcing the law and that the 
administration's efforts to terminate Yucca will actually be 
stopped and that they will require that the Yucca application 
proceed. So we will wait for that day. Thank you very much.
    Mr. Shimkus. The gentlelady yields back her time. And the 
Chair now recognizes the gentleman from Illinois, Mr. 
Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thank you all 
very much for your work on these issues and for coming in front 
of us today. I am glad we are talking about this. This is very 
important. It may not be on the national radar and the front 
page of the newspaper every day, but it is extremely important 
I think to the future of energy in this country.
    Actually, Illinois' 11th district that I represent is the 
largest nuclear district in the country. We have three plants, 
six reactors, and we have a home of where there was originally 
going to be nuclear recycling in Morris, Illinois, which is now 
a spent fuel storage pool. So we have four areas where fuel is 
stored in my district. Given as how we have paid $15 billion 
into this fund, including many of the rate payers in my 
district, it has been now over a quarter of a century. So when 
I go back home to tell the people in my district that the 
Federal Government is responsible for the waste, how long 
should I tell them that it is going to take to create a 
corporation to build community consensus--I don't have--there 
you go. Can you hear me now? It is red. Maybe I will move.
    Mr. Green. You are welcome to come to one of these mics on 
our side.
    Mr. Shimkus. That is the bipartisan nature of this 
subcommittee.
    Mr. Kinzinger. I am back. OK. Great. So as I was saying, 
when we talk about building the corporation, building community 
consensus, constructing interim sites, what kind of a time 
scale are we talking about? I mean, the fear is we are talking 
another quarter century. And so as you continue to have waste 
buildup on-site it is a serious issue. So what are your all's 
inputs in what you think this is going to take from a time 
perspective?
    Mr. Hamilton. Well, creating a new organization will take 
legislative action. And we talked about that a little earlier 
today here I think with Chairman Barton. Neither he nor I think 
it can be done in 2012, and it is likely to be at least a 2-
year and maybe 3- or 4-year project to create a new 
organization. Now, that doesn't mean you don't do anything 
between now and the time the organization is created. I think 
there are a lot of things that the DOE, and these are spelled 
out in detail in the report, can do now to begin to prepare for 
establishing a repository and a storage facility. Specifically 
in the report we take a guess and we say that in order to 
establish a storage facility you are talking 10 to 15 years and 
15 to 20 years on a repository, so you are talking about a long 
length of time. There isn't any doubt about it.
    Mr. Kinzinger. The next question I had, in reading through 
the report I was disappointed with the Commission's timeline 
for developing advanced reactors to recycle used fuel. I 
understand the report is based on a consensus and members had 
differing opinions on whether to recycle nuclear waste, but I 
would like to know would a demonstration project if we were 
able to get one off the ground and online, would that shorter 
the time estimate? Is that something you could see as being 
positive in bringing that technology closer?
    Mr. Scowcroft. Well, we had a panel, a subcommittee, look 
at this and they consulted the nuclear experts, if you will. 
And what we are doing is reflecting the best thought that our 
own nuclear scientists have presented. So what we say is we 
support a vigorous R&D program both in reactor development and 
in recycling, reprocessing spent fuel. But farther than that we 
wouldn't go because that is not fundamentally what we were 
asked to do.
    Mr. Hamilton. We want to keep options open in the future. 
And we believe a lot of advances in nuclear energy technology 
have the potential to deliver a lot of benefits. We don't rule 
out R&D on recycling and reprocessing. This could be the 
answer. We think it is premature now to say that it is the 
answer, but it could be. And we certainly want to proceed with 
research and development on it.
    Mr. Kinzinger. Thank you. And I thank you gentlemen and 
would echo the chairman's comments of earlier. I would love to 
see the law of the land become the enforced law of the land and 
would love to see Yucca Mountain opened up. But with that said, 
I appreciate your time and I yield back to the chairman.
    Mr. Shimkus. The gentleman yields back his time. We would 
like to thank you for coming for 2 hours. If you had known you 
had to do this when you accepted the Blue Ribbon Commission 
mission, you may have said no. But again, with all sincerity it 
does for me personally to say if I am able to live long, to 
stay active, to stay vibrant, you guys are a credit to our 
country, and we do appreciate your time. We will dismiss this 
panel so you can get out of here before anyone else shows. And 
ask the second panel to come join us.
    Thank you very much.
    We would like to thank our second panel for joining us and 
sitting through the first panel. I think we found that very 
informative and educational and I think that will add to the 
second one.
    What I would like to do is you all have 5 minutes for your 
opening statements. We know your formal testimony is submitted 
for the record, and I am going to do a basic introduction, and 
then we will move right through once I formally introduce you 
all here. First, we have Mr. Lake Barrett, President of L. 
Barrett Consulting; he is the former deputy director of the 
Civil Radioactive Waste Management of the U.S. Department of 
Energy, formally.
    Dr. D. Warner North is the president of NorthWorks, 
Incorporated, catchy name. A consulting professor in Stanford's 
department of management and science engineering. Dr. North is 
a former member of the U.S. Nuclear Waste Technical Review 
Board and a member of the board of radioactive waste management 
at the National Research Council. Welcome.
    Mr. Martin G. Malsch is a partner of Egan, Fitzpatrick, 
Malsch and Lawrence. Previously Mr. Malsch served as the 
Nuclear Regulatory Commission's acting general counsel, deputy 
general counsel and inspector general. He represents the State 
of Nevada in litigation relating to Yucca Mountain testifying 
on his on behalf, welcome.
    Dr. Edwin Lyman, is that pronounced right?
    Mr. Lyman. Yes.
    Mr. Shimkus. Is a senior staff scientist for the Union of 
Concerned Scientists, Dr. Lyman's research focuses on the 
prevention of nuclear proliferation and nuclear terrorism. We 
have Mr. Thomas A. Schatz is the president of Citizens Against 
Government Waste. And Mr. David A. Wright is the chairman of 
the board and the president of National Association of 
Regulatory Utility Commissioners, he is also the vice chairman 
of the South Carolina Public Service Commission. Gentlemen, 
welcome and with that, we would like to start with Mr. Barrett, 
you have the time for 5 minutes for your opening statement.

     STATEMENTS OF LAKE H. BARRETT, PRESIDENT, L. BARRETT 
CONSULTING; D. WARNER NORTH, PRESIDENT AND PRINCIPAL SCIENTIST, 
NORTHWORKS, INC.; MARTIN G. MALSCH, PARTNER, EGAN, FITZPATRICK, 
   MALSCH & LAWRENCE; EDWIN LYMAN, SENIOR SCIENTIST, GLOBAL 
  SECURITY PROGRAM, UNION OF CONCERNED SCIENTISTS; THOMAS A. 
SCHATZ, PRESIDENT, CITIZENS AGAINST GOVERNMENT WASTE; AND DAVID 
   A. WRIGHT, PRESIDENT, NATIONAL ASSOCIATION OF REGULATORY 
                     UTILITY COMMISSIONERS

                  STATEMENT OF LAKE H. BARRETT

    Mr. Barrett. Thank you, Chairman Shimkus, Ranking Member 
Green, and other members of the committee. Thanks for the 
opportunity to provide my personal views regarding the Blue 
Ribbon Commission's recommendations. The Nuclear Waste Policy 
Act established a scientific regulatory and political 
administrative process for safely disposing of our Nation's 
spent nuclear fuel and high-level radioactive waste. And this 
process lawfully selected Yucca Mountain as the Nation's first 
repository site as the BRC properly states on page 12 of their 
report.
    Unfortunately, this administration has succumbed to 
politics and have reversed much of the process that has been 
made over last 25 years. Although this Commission was created 
partially as a cover for the administration's actions, it has 
produced a very thoughtful report with excellent useful 
recommendations that should be implemented regardless of the 
future of Yucca Mountain.
    It is not the fault of the BRC that they were not allowed 
to examine the obvious and lawful Yucca Mountain geologic 
repository disposal solution. Despite such a politically 
imposed shortcoming, they produced a well-reasoned report with 
excellent conclusions. I strongly urge the administration and 
Congress to act promptly to incorporate the BRC recommendations 
into our existing national program and get our Nation's nuclear 
waste disposal program moving forward again.
    I strongly agree with the BRC's finding that a solution to 
the Nation's spent fuel management needs is urgently needed and 
the substantial cost of inaction is mounting every day. The BRC 
properly concludes that a national geologic repository is the 
foundation of any national spent fuel program. Although they 
were not allowed to say it, that site exists today at Yucca 
Mountain. They clearly confirm there is no new technological 
silver bullet that can replace the need for a geologic 
repository like a Yucca Mountain. Although they were prevented 
from considering Yucca Mountain, I believe most of their 
recommendations are applicable to Yucca Mountain.
    Clearly, everyone wishes that a consensus agreement could 
have been established between the Department of Energy and the 
State of Nevada. Clearly that was my personal goal when I 
directed the program. Unfortunately, political positions in 
those times prevented any meaningful negotiations to resolve 
Nevada's issues. One step in the right direction today would be 
to finish the Yucca Mountain NRC licensing process in an open 
and transparent manner to independently resolve all of Nevada's 
safety and environmental concerns. I am personally very 
confident that the site will be safe for well over a million 
years.
    Completing the nearly finished NRC licensing process would 
hopefully make safety evident to all Nevadans such a 
politically-driven, fear-mongering sound bites would be seen 
for what they are, and a meaningful negotiation could be begin. 
Such a negotiation would lead to the necessary changes, 
assurances, and substantial benefits that Nevada deserves from 
the Federal Government for acting in the national interest. 
Such a binding agreement would be of great value and be of 
mutual benefit to all Nevadans and the rest of Nation as well.
    The BRC report properly highlights the need for Federal 
action to remove spent fuel which is stranded at shut-down 
nuclear reactors. To achieve this important goal in a timely, 
effective manner the BRC correctly recommends a partnership, 
consensus-based, consolidated interim storage facility. In my 
view, that process should start immediately. It is not a 
technical problem, it is a problem of our collective failure to 
act in our mutual national interest with respect to the host 
State.
    DOE has the authority, under existing law and capability 
with its commercial contractors to act now on many of the BRC 
recommendations, such as working to develop consensus hosting 
partnerships. It is also a factor DOE's commercial contractors 
made significant progress in developing over 10 State and local 
hosting expressions of interest for the past global nuclear 
energy partnership facilities. Although that program no longer 
exists, the volunteer hosting partnership concept fits 
perfectly with the BRC recommendations and our national needs 
today.
    DOE should now task their existing commercial nuclear 
contract support teams to engage with potentially interested 
communities and States to explore mutually beneficial hosting 
partnerships arrangements. This simple but important first step 
will begin the process of developing what I envision as a 
volunteer, integrated used nuclear fuel management R&D center, 
and possibly a volunteer host for the needed second geological 
repository.
    I believe this Nation stands at a critical ethical 
crossroad on nuclear waste management. We owe our grandchildren 
a protected disposal solution for used nuclear fuel in high-
level radioactive waste that our generation has made. In my 
view, it is irresponsible to just continue kicking the problem 
down the road to the next generation just because someone has 
localized political pressure during a primary campaign. 
Solutions are at hand, and the Blue Ribbon Commission, despite 
its politically imposed restrictions, has provided useful 
actionable recommendations, that can greatly enhance and 
preserve what has already been achieved. Let us not waste this 
opportunity. Thank you.
    Mr. Shimkus. Thank you, Mr. Barrett.
    [The prepared statement of Mr. Barrett follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Now I would like to recognize Dr. North for 5 
minutes.

                  STATEMENT OF D. WARNER NORTH

    Mr. North. Thank you for this opportunity.
    Mr. Shimkus. Dr. North, I think you need to press the 
little button there.
    Mr. North. Thank you, Mr. Chairman, now it is on. Ranking 
Member Green and other members of the subcommittee, I strongly 
endorse the BRC final report and its recommendations, the 
Commission and its staff have produced an excellent document 
within its scope. BRC states that national policy has, ``been 
troubled for decades and has now all but broken down.''
    I would have preferred more clarity at the outset in this 
report as to where responsibility for this impasse lies. DOE, 
NRC and the Nuclear Waste Technical Review Boards worked 
diligently and commendably to implement the Nuclear Waste 
Policy Act. The impasse comes from the law established by 
Congress, inconsistency and national leadership, and opposition 
by State political leaders, especially Nevada. The impasse did 
not come from people like Lake Barrett and many others who have 
devoted many years of their professional careers to 
implementing the existing law in the work on Yucca Mountain.
    Much of BRC's guidance is consistent with findings and 
recommendations of earlier reports. There are no major 
breakthroughs in understanding or from new technology. The 
Nation needs geological disposal, it is the only long-term 
solution. There is international consensus on how to do it. 
Many other nations are making progress. Our progress has 
stopped, our country has a liability of $50 billion, 30 billion 
from ratepayers in the nuclear waste fund. And my figure is 
from the 2011 financial report to the United States Government, 
plus 20 billion in legal penalties for failure to fulfill 
contracts. This number should not continue to grow.
    The new consent-based approach BRC recommends is not a new 
idea but one that has been around for decades. It would be new 
for the U.S. Federal Government, a change from existing law.
    Siting success is defined by BRC as a legally binding 
agreement among the parties. This is formalizing what was 
described in the Republican presidential candidates' debate in 
Las Vegas as a pretty good deal. New Mexico negotiated a pretty 
good deal with the Federal Government on WIPP, more pretty good 
deals could restore U.S. progress. Deal-making is a societal or 
political matter, not overcoming technical challenges. Perhaps 
there will be some benefit to looking at flexible and 
significant incentives. The technical community should be 
assuring safety and minimizing cost, but this is not something 
where we can help a lot.
    Many State governments have opposed the siting of a nuclear 
waste facility in their State. Nevada established an 
organization to oppose such a facility, the Nevada Nuclear 
Waste Project Office in 1985. According to the Web site, the 
mission remains the same, not improved scientific understanding 
and support for wise decision-making but opposition. In 
contrast, local government entities near Yucca Mountain such as 
Nye County have expressed support for the facility. The 
presentation of the map I thought was most appropriate.
    Can the Federal Government go from opposition to pretty 
good deal with one or several States? During my service on a 
nuclear waste technical review board 20 years ago, DOE had a 
program in place that developed the system planning for 
packaging and transporting spent fuel which TRB reviewed and 
encouraged, but Congress cut the appropriations forcing this 
work to be deferred. A lead time on the order of a decade is 
needed before waste transport begins. For WIPP timely and 
effective advance planning for the transport of waste was done 
by DOE in cooperation with State and local agencies.
    DOE and the administration should carry out the steps in 
chapter 13, Congress should take steps needed to implement the 
recommendations, but more discussion and debate will be needed. 
DOE should designate a senior official as BRC has recommended. 
This senior official should be supported by staff and 
consultants at the same level of excellence as the staff and 
consultants who participated in the preparation of the BRC 
final report. Thank you.
    Mr. Shimkus. Thank you, sir.
    [The prepared statement of Mr. North follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. I would like to recognize Mr. Malsch for 5 
minutes.

                 STATEMENT OF MARTIN G. MALSCH

    Mr. Malsch. Thank you, Mr. Chairman, Ranking Minority 
Member Green and other members of the subcommittee. I 
appreciate the opportunity to provide testimony today regarding 
the Recommendations of the Blue Ribbon Commission on America's 
Nuclear Future released just last week. My name is Marty 
Malsch, I am a partner in the law firm Egan, Fitzpatrick, 
Malsch & Lawrence which specializes in nuclear energy and 
nuclear waste matters. As the chairman has indicated, I do 
represent the State of Nevada on Yucca Mountain matters. My 
testimony today represents my own views and they do not 
necessarily represent the view of the State of Nevada.
    In accordance with the committee's rules, I will proceed to 
offer a brief oral summary and would like to have my full 
testimony included in the record.
    Mr. Shimkus. Without objection, so ordered.
    Mr. Malsch. The BRC studied the history of successful and 
unsuccessful attempts around the world to develop geologic 
repositories for radioactive waste. Its recommendations based 
on this study and other factors are thoughtful and well 
supported. We owe a debt of gratitude to the BRC members and 
the BRC staff for their willingness to serve, their dedication 
to the task, their openness to diversion of ideas and opinions 
and their careful analysis of problems and feasible solutions 
to the nuclear waste management issues confronting America 
today.
    While I generally support all of the BRC's recommendations, 
I would like to focus my testimony today on four especially 
important and closely connected ones. First, I agree there 
should be prompt efforts to develop one or more geologic 
disposal facilities, although not in the sense that we need to 
select and license a repository in the near term. We are not 
facing any disposal crisis because vitrified high-level waste 
and spent nuclear fuel can be stored safely for a long time, 
but in many of the Nuclear Waster Policy Act organizing and 
staffing a new waste management organization, and implementing 
a new consent based site selection process as the BRC has 
recommended will take considerable time. We should start the 
process promptly especially the process to make necessary 
legislative changes.
    Second, the BRC recommended an adaptive stage facility 
licensing and development process whereby project managers are 
able to reevaluate earlier decisions and redesign or change 
course where new information warrants. This recommendation 
addresses, I believe, what is one of the key lessons from the 
past that premature commitments to one site should be avoided. 
There should be multiple opportunities to assess the quality of 
the technical program and the safety case supporting the 
decision-making process and to pull the plug when warranted.
    Third, I support the BRC's recommendations that there 
should be a new organization devoted solely to implementing the 
waste management program. DOE has not performed well here and a 
new organizational approach is clearly needed.
    Fourth and most important, the BRC recommended a new 
consent-based approach to future siting waste management 
facilities. I believe that a consent-based site selection 
process is not just good government, it is a frank concession 
to reality and one of the key lessons that must be learned from 
history.
    We should not assume that the objections of a host State or 
local government or Indian tribe will melt away and that they 
will be ready to deal if the NRC grants a license or 
construction authorization. Nor should we assume that the 
preemptive powers of the Federal Government are so great and 
that State and local rights and preferences are so undeserving 
of respect that a site can always be thrust upon an unwilling 
host State government or tribe. This means must be found to 
elicit the cooperation, or at least the acquiescence of the 
host State government or tribe.
    I agree with the BRC that a successful site selection 
decision will most likely result from the negotiations between 
the implementing organizations and the potentially affected 
governments and that it will be desirable for these 
negotiations to result in some form of legally enforceable 
agreement. I also recognize that a State, local or tribal 
government's ability to veto a repository project cannot last 
indefinitely. Otherwise, the uncertainty of whether a project 
could ever successful would be so great that any significant 
investment and it would be imprudent. Ending the veto can be 
matter of subject negotiation between the waste management 
organization and the governmental entity.
    The BRC report includes a brief summary of the U.S. 
experience in developing geological repositories and draws some 
conclusions based on this experience. My written testimony adds 
some details about this experience focusing on Lyons, Kansas, 
and Yucca Mountain, Nevada. I believe these are worth 
considering because they add substantial context and support 
for the BRC's recommendations and conclusions.
    In conclusion, almost everything that could go wrong with a 
geologic repository program in the United States has now gone 
wrong. It would be unfortunate if the nuclear power program in 
this country floundered because of because of poorly chosen 
policies for managing spent fuel and high-level radioactive 
waste. And the citizens living near DOE legacy sites deserved a 
better program than the one they got. The BRC has now offered 
and recommended a path forward. We have ample time to consider 
the BRC's recommendations and get things right. Thank you for 
your consideration of my testimony.
    Mr. Shimkus. Thank you, sir.
    [The prepared statement of Mr. Malsch follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Now I would like to recognize Mr.--Dr. Edwin 
Lyman, sir, recognized for 5 minutes.

                    STATEMENT OF EDWIN LYMAN

    Mr. Lyman. Thank you. On behalf of the Union of Concerned 
Scientists, I appreciate the opportunity to present our views 
on the recommendations on the Blue Ribbon Commission. I would 
like to thank Chairman Shimkus and Ranking Member Green and 
other members for hearing us out.
    The Union of Concerned Scientists is neither pro nor anti 
nuclear power, but we have served as a safety and security 
nuclear watchdog for over 40 years. We are deeply concerned 
about global climate and we have never ruled out an expansion 
of nuclear power to cope with those problems provided that it 
meets high standards of safety and security. However, the 
Fukushima Daiichi accident has revealed significant 
vulnerabilities in nuclear safety that really need to be 
addressed if nuclear is going to be a serious option in the 
future and the management disposal of the nuclear waste is 
clearly a major factor in that.
    Before proceeding, I would like to point out that UCS has 
never had a position for or against Yucca Mountain or any other 
site, we simply don't have the geological expertise to be able 
to assess a site's ability independently. We commend the 
Commission staff of the BRC for an excellent report and think 
they have addressed very well a very challenging set of issues. 
We reviewed all eight recommendations, and agree with most of 
them, but our greatest area is of agreement concerns, the 
absence of a recommendation. We were pleased to see that the 
Commission did to not call for an immediate change in U.S. 
long-standing policy not to reprocess spent nuclear fuel. So we 
do concur with BRC on that.
    UCS has long opposed reprocessing primarily because it 
produces Plutonium and other weapons-useable materials that 
greatly increase the risk of nuclear terrorism, nuclear 
proliferation, and at the same time, do not provide any 
benefits for waste management. Now we heard earlier about 
figures provided by AREVA that claim they can reduce the volume 
of nuclear waste for final disposal through reprocessing. I 
reviewed those numbers and I can say the factor of 4, which we 
heard earlier this morning is not technically valid and I would 
be happy to provide more details on that.
    Be also believe if the BRC had endorsed reprocessing, it 
would have send the wrong message to the rest of the world 
control, undermining efforts to control the growth of separated 
Plutonium. For instance, in Japan today, they are currently 
reconsidering the start up of a large reprocessing plant at 
Rokkashomura, which has been idle because of the technical 
problems and the ramifications of Fukushima. Japan already has 
45 metric tons of Plutonium, of which 10 tons are in Japan that 
is on the order of a thousand Nagasaki-type weapons, Japan just 
simply doesn't need any more Plutonium. And we are just glad 
that the BRC did not give the signal that would have given 
coverage to Japan for restarting that facility.
    On the recommendation for creating a new entity independent 
from Department of Energy, we agree with that, but we believe 
that it is very important to limit that entity to the 
constraints called for in the report with, based on transports 
storage and direct disposal, spent fuel and high-level waste 
with only limited research and development to support those 
activities.
    We did disagree with the BRC on the urgent need for 
centralized interim storage. We still are not persuaded that 
there is a good reason to cite our new centralized interim 
storage facilities, either for operating or for shutdown 
reactors. And we are concerned that an effort could to distract 
from the goal of citing a geological repository. Simply too 
many moving parts, too many potential sites being considered, 
too much incentive money that would have to go around we think 
could really interfere with the goal of finding a repository 
which we think we agree as a fundamental requirement.
    We do think that spent fuel can be stored safely and 
securely for probably 100 years at reactor sites provided that 
the NRC upgrade its safety and security practices.
    In particular, we are continually concerned about the long-
term storage of spent fuel in wet pools under densely-packed 
conditions. We believe that poses a greater threat of large 
radiological release, and we encourage the thinning out of 
those pools by transferring spent fuel into dry casks. Dry 
casks are safer but do need to be protected especially against 
sabotage, and we also call for increased protection against 
sabotage in dry cask facilities.
    Finally with regard to research and development, we believe 
a limited program of R&D on nuclear energy continues to be 
appropriate, but we think it needs to be focused, needs peer 
review, and that the merits of those programs need to be under 
constant observation so we don't waste taxpayer money on 
options like reprocessing that have not shown to be successful 
in the past. I thank you and would be happy to take your 
questions.
    Mr. Shimkus. Thank you, Dr. Lyman.
    [The prepared statement of Mr. Lyman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Now I would like to recognize Mr. Shatz for 5 
minutes.

                 STATEMENT OF THOMAS A. SCHATZ

    Mr. Schatz. Thank you, Mr. Chairman, Ranking Member Green, 
other members of the subcommittee. My name is Tom Schatz, I am 
president of Citizens Against Government Waste. The 
organization was founded in 1984 by the late industrialist, J. 
Peter Grace and nationally-syndicated columnist Jack Anderson 
to build support through the implementation of the 
recommendations of the Grace Commission, which was established 
by President Reagan. CAGW was, as I said, founded in 1984, that 
was a year after President Reagan signed into law the Nuclear 
Waste Policy Act of 1983. And yet, we have certainly seen a lot 
of wasteful expenditures over the years, but the fact that we 
spent all this money and come up with zero in terms of anything 
being sent to Yucca Mountain is certainly one of the largest 
examples of wasteful spending we have ever seen. Usually we are 
looking at examples of ear marking a few million here and 
there, but we are talking about tens of billions of dollars 
that have been spent, and based on some of the estimates, 
possibly $100 billion, and now we have a Commission coming in 
and saying let's pull the plug on all of this and start over.
    So we understand and appreciate the outrage that has been 
expressed by some of the members here today. And while we are 
usually pretty expressive about our concerns on this, maybe we 
understated some of the comments in our testimony.
    Yucca Mountain has been certified, nuclear waste fund has 
assessed ratepayers between 750- and $780 million each year 
since 1983. As everybody has mentioned, $15 billion spent to 
evaluate sites to get Yucca Mountain going. We have 65,000 
metric tons, and not one spent fuel rod has been sent to Yucca 
Mountain or anywhere else for permanent storage.
    And the fuel languishes at 75 sites in 33 States so it is a 
little difficult to hear people say we don't have a problem, we 
can just leave it there. Clearly that is not only a problem, it 
is also against the law, because all of those facilities went 
into operation understanding that the fuel would be sent to a 
permanent repository.
    The White House, unfortunately, made good on President 
Obama's campaign promise to close Yucca Mountain, no funding in 
the fiscal year 2011 budget, but the determination to close 
this facility was not based on science or technology. The 
administration stated the decision was predicated upon a 
proposed change of department policy for managing spent nuclear 
fuel, but they didn't come up with an alternative plan except 
to call on some very distinguished gentlemen to create a 
commission and issue a report that took 2 years, cost $5 
million at a time when another $2 billion in liability was 
assessed against the Department of Energy.
    The fact that the Commission couldn't review the 
suitability of Yucca or evaluate any site certainly creates 
another problem because we are back starting over based on 
their recommendations with the new organization. Perhaps this 
new corporation will be as effective as maybe Fannie Mae and 
Freddie Mac or some other Federal corporation that's done such 
a great job with our tax dollars over the years.
    And we had consent, as the chairman's chart showed, the 
local community said yes, the State of Nevada itself in 1975, 
the legislature said yes. So if we had a ``consent-based 
agreement,'' what is to stop that same community 10 years later 
from saying, no, we don't it want in the middle of 
construction? This is a national issue. There is local consent, 
and as many have mentioned, there are a handful of people that 
are getting in the way of moving this forward.
    It seems that even the commissioners admitted that 
indirectly, that Yucca should have moved forward, at least the 
licensing should have moved forward because if we don't do 
that, we are going sit here for another 10, 20, 30 years trying 
to figure out where to put all of this nuclear waste.
    Utility industry estimates it is a $50 billion liability, 
DOE says 20 billion, but the Department of Energy estimate is 
based on a promise that Yucca would accept fuel in the next 8 
years. Clearly that estimate is now quite low.
    There's also a report sitting out there that has not been 
released, the safely evaluation report volume 3 the science-
based and technology committee has it, I think taxpayers should 
see it. Because this will also establish the science on this 
issue and hopefully move some of the politics out of the way.
    The BRC noted that this generation has an ethical 
obligation avoid burdening future generations with the entire 
task of funding a permanent solution for hazardous materials. 
We agree, that burden should not be passed on to the next 
generation along with a lot of other burdens that are going to 
be passed on to the next generation based on Congress's failure 
to act on other good ideas to cut spending. Thank you, Mr. 
Chairman.
    Mr. Shimkus. Thank you, Mr. Schatz.
    [The prepared statement of Mr. Schatz follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. And now I would like to recognize Mr. Wright 
for 5 minutes, sir.

                  STATEMENT OF DAVID A. WRIGHT

    Mr. Wright. Thank you. Good afternoon, Chairman, Ranking 
Member Green.
    Mr. Shimkus. Your microphone.
    Mr. Wright. It is on, I believe, I will pull it closer. My 
name is David Wright, and I am a commissioner with the South 
Carolina Public Service Commission, and I serve as president of 
the National Association of Regulatory Utility Commissioners on 
whose behalf I am speaking today. NARUC and State utility 
commissions in 40 States served by nuclear generated 
electricity have been involved in the troubled history of 
nuclear waste disposal since 1983. That is when the utilities, 
which own the fuel, were required by the Nuclear Waste Policy 
Act, to enter into contracts with DOE. Those contracts called 
for payments of fees for nuclear-generated electricity to the 
Treasury for deposit into the nuclear waste fund to pay for the 
cost of disposal of used fuel beginning in 1998.
    Disposal has not happened, but the fee payments continue to 
be made. Or as a former Florida utility commissioner summarized 
the status in 1991, the government has our money, we have their 
waste. It is now 20-plus years later, and we still have the 
government's waste.
    Utilities passed the cost of the fees to their customers 
through their electric bill. In addition, and because of the 
government's failure to open Yucca, customers, through their 
rates, have had to pay additional amounts to cover the cost of 
reracking utility spent fuel pools to accommodate more spent 
fuel. And have had to pay for onsite dry cask storage as well 
as the increased security required there.
    Moreover, all taxpayers, through the judgment fund, have 
had to pay damages for the lawsuits brought to date as well as 
those to come. In 2009, the administration pronounced Yucca 
Mountain not a workable option, and that it intended to 
terminate the repository development there, a position contrary 
to the law of the land. In March 2010, DOE asked the NRC's 
Atomic Safety Licensing Board for permission to withdraw the 
application with prejudice. In June, the ASLB rejected the 
request. The decision was appealed to the NRC. While the NRC 
was disposing of the license matter the President directed that 
the Secretary of Energy appoint the Blue Ribbon Commission on 
America's nuclear future to consider and recommended a new 
strategy, a strategy that soon became evident would be a post-
Yucca strategy.
    In 2010, NARUC and several other parties petitioned the 
Court of Appeals under the NWPA, to challenge DOE's authority 
to withdraw the Yucca Mountain license application, but the 
case dismissed because there had been no final agency action by 
the NRC on the appeal of the board's decision rejecting DOE's 
request. The NWPA mandates that once the Yucca Mountain license 
was submitted. The NRC had only 3 years to complete the review 
proceedings, those 3 years have expired. Currently, the NRC 
faces a mandamus action to force it to complete the required 
review in the U.S. Court of Appeals for the District of 
Columbia circuit. NARUC is one of several petitioners in that 
suit. Our reply briefs were filed last Friday.
    Notwithstanding, our pro Yucca position, NARUC was closely 
involved in the work of the BRC, we wrote letters, gave 
testimony, provided comments to the subcommittee and attended 
the public meetings. As for the recommendations, we have the 
following points: 1, reform with nuclear waste fund is, 
essential; 2, regardless of Yucca Mountain, we will need 
another new repository. The lessons of Yucca and others suggest 
the consent-based siting approach may get better reports but 
will require patients; 3, we have long favored consolidated and 
home storage on a parallel track with Yucca, but find the 
report vague as to quantity, duration and cost as well as what 
the effect will be on the fee if the nuclear waste fund is to 
be used to pay for storage; 4, we agree with the concept and 
benefits of a new Federal corporation that can focus solely on 
the waste management mission; 5, transportation planning and 
coordination with States and others cannot begin soon enough.
    There are two areas where we disagree with the Commission 
report. A, the report says, ``Overall we are confident that our 
waste management recommendations can be implemented using 
revenue streams already dedicated for this purpose.'' There are 
no cost estimates to substantiate that belief, which likely 
also assumes the $26.7 billion under the nuclear waste fund is 
assured; B, the report further says, ``We know what we have to 
do, we know we have to do it, and we even know how to do it.'' 
While we may wish that were true, our assessment is that there 
were too many people who are content to pass the problem along 
to future generations and leave the waste where it is. 
Continuing to kick the dry cask down the road should not be an 
option.
    So yet another study calls for prompt action, yet despite 
on paper a financing plan, implementation relies on leadership 
from the administration and the Congress. NARUC stands ready to 
assist on behalf of ratepayers who may not even realize it, but 
they are already paying for safe waste disposition. Thank you 
for listening.
    [The prepared statement of Mr. Wright follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you. Now I would like to recognize 
myself for the first 5 minutes of questions. And just to follow 
up, Mr. Wright, I would cut the Blue Ribbon Commission a little 
slack because I think they do know what they need to do, long-
term geological repository; they do know how to do it because 
Yucca Mountain is there to do it. So I think in them saying 
that, that--I mean, that they were very careful if you read the 
whole document in saying, no, we are not supposed to, but we 
are not limiting it and stuff like that.
    So let me first start with Dr. Lyman just as an aside, I 
appreciate your testimony. I have had some good battles with 
your organization on climate. But your position on nuclear 
power and carbon dioxide emissions, it is very clear: If we are 
going to go in that route, if electricity generation is 
boosting 30 percent or 27 percent in 30 years and you keep the 
same ratio of 20 percent electricity generation, that would be 
37 new nuclear power plants, that just exacerbates the problem 
we have with nuclear waste. Whether we go in that direction I 
don't know because of natural gas and things. But I did 
appreciate your testimony. I wanted to give Mr. Barrett and Dr. 
North a chance to comment on comments from the first panel.
    Mr. Barrett, do you have anything you want to publicly say 
about our 2 esteemed members of the commission who were before 
us?
    Mr. Barrett. I believe they are great public servants to 
America and have done many great things and they deserve a lot 
of praise for a job well done. I am very unhappy and 
disappointed that they were constrained so due to the political 
actions of this administration.
    Mr. Shimkus. I like both, and I want to key on because you 
could tell, I got frustrated at the end when they kept stating 
how we have failed to act. And we have known a long time in 
this process, it does take a long time. We are right at the 
cusp of really doing that. And now I think the frustration--Dr. 
North, in your testimony, you hit the nail on the head and you 
have said we have had long working public servants over decades 
to get here now because of the fault of who? The politicians 
were not there.
    Mr. North. I have to say as once his critic when I was on 
the TRB, there has been a lot of oversight and criticism and 
get it right on DOE from lots of places, including the Nevada 
Waste Project Office. On TRB meetings, I was amazed how much 
they would come in and try to help pointing out technical 
problems on Yucca so that we could find solutions to them. So 
there has been a huge investment here by the technical 
community, but the issues I thought former Congressman Hamilton 
spoke to about the difficulty of electoral politics in the 
United States and getting a large enough majority in the 
Congress to override the present majority leader in the Senate, 
is that politically realistic? We might hope and pray for it, 
but it seems to me that what the presidential candidates have 
been saying, we need a pretty good deal, maybe a good place to 
back up to and think about what might be done, either in Nevada 
or in other sites.
    For example, the State of Washington, the basalt rock was 
considered as a potential host site when DOE was looking at 
five sites and picking three, and I was brought in to be a 
consultant on the methodology they were using to make the 
choice. Or New Hampshire, we were looking at granite as the 
rock for the second repository program. On the eve of a 
presidential primary, the second repository program went away. 
It seems to me these are failures in leadership rather than 
failures in the technical community. And if States wish to 
submit a bid because they think it will be a pretty good deal, 
we definitely need to talk. New Mexico is talking, maybe other 
States will be attracted to this, maybe even Nevada.
    Mr. Shimkus. My time is short. Let me go--how many of you 
would agree that the nuclear waste fund mechanism should be 
fixed so that managers of it can have access to the money paid 
into it, yes or no. Mr. Barrett?
    Mr. Barrett. Yes.
    Mr. Shimkus. Dr. North?
    Mr. North. Yes.
    Mr. Shimkus. Mr. Malsch?
    Mr. Malsch. Yes.
    Mr. Shimkus. Dr. Lyman.
    Mr. Lyman. Yes.
    Mr. Schatz. Yes.
    Mr. Shimkus. Very good. My time has expired. I now would 
like to turn to my ranking member, Mr. Green, for 5 minutes.
    Mr. Green. I have a number of questions, but first, let me 
say politics in Washington, we are shocked that is being done. 
We have a President who campaigned in Nevada saying he was 
going to shut down Yucca, we have the majority leader in the 
Senate saying that. We know what happens in New Hampshire, it 
is an early State, that is why we have Iowa with corn 
subsidies, ethanol, which coming from my part of the country, I 
am not a big ethanol person, as our chairman knows, so that is 
the dilemma we are in. And the Blue Ribbon Commission gave us 
somewhat of a way we can get out of it.
    I have been to Yucca Mountain, I think some day, Senator 
Reid will not be there anymore than any of us will be here and 
that will be a possibility. But between now and then, we need 
to get serious about doing particularly interim storage 
facilities so we take it out of our site base that we are 
doing. It is not just in the United States.
    I was surprised last year because of what happened in 
Japan, Germany are now shutting down their nuclear power 
plants. So I guess they will buy more gas from Russia, or maybe 
they will frack it because there are some places in Eastern 
Europe that have shale.
    So politics is part of our governance, and we have to deal 
with it and sometimes we have to survive. And that will change, 
and that is what elections are about.
    Mr. Malsch, one of my concerns is consent-based process 
necessary and how it could help with the potential approval of 
some type of Yucca Mountain-type facility in the future. After 
spending time in Nevada in talking with New Mexico Members of 
Congress, even though the southern part of New Mexico likes 
what is going on now and would like to expand it, nobody thinks 
that the New Mexico legislature will approve it. And so if we 
are considering consent-based on some legislative body, we will 
be back where we are in Nevada with everybody who runs for 
office in Nevada, Republican or Democrat, says I am against 
Yucca, so you will see the same thing, not in my backyard. In 
fact, Congressman Bass talked about it in New Hampshire.
    If we base it only on consent, we will not get there, that 
is where, I think, the frustration was in the 1980s when 
Congress made that decision for Nevada, because they couldn't 
get anyone else to settle on it.
    I don't want to rehash the history, but in your testimony 
you offer a few key lessons on efforts to site repositories in 
Kansas and Nevada that we could apply to move forward to a new 
strategy. First, you suggest the Federal Government not commit 
to repository until the appropriate scientific investigation is 
complete. That seems a no-brainer that we should do that. Can 
you explain how the Federal Government failed to heed this 
lesson in both Kansas and Nevada and how, if we change, the 
likelihood of success?
    Mr. Malsch. Well, certainly in Kansas, the AEC pressed 
forward in the face of--with only very incomplete 
investigations and didn't pay sufficient attentions to the 
advice of experts in Kansas, including the Kansas geologist. 
And ultimately the project failed.
    In the case of Yucca Mountain, the Congress decided that 
Yucca would be the only site to be studied and characterized in 
the face of incomplete information, and information was even 
incomplete when the President recommended the site to the 
Congress because it took another 6 years even to complete the 
license application after the site recommendation was made.
    I think I agree with the Blue Ribbon Commission that there 
has to be an iterative process in which decisions are made on 
an iterative step-wise basis consistent with the level of 
information available. It would be one thing for a State or 
community or tribe to agree, for example, to have a site 
investigated; quite another to agree prior to the completion of 
the investigations with repository or even for that matter, 
centralized storage facilities. You have to go step by step, 
you can't ask too much in the earlier stage. I think, really, 
that premature commitments its Lyons, Kansas and Yucca greatly 
eroded the credibility of the program, and I would hate to see 
that repeated again.
    Mr. Green. I am going run out of time. There is a history 
of Congress overriding States' decisions, and obviously the 
Yucca Mountain is one of them, but the 2005 energy bill that we 
passed on siting at that time, we needed importation of L&G, 
and a great many States would not allow those facilities to be 
built, obviously Texas and Louisiana we build them everyday. We 
took away that permission and Federalized that permitting 
process, because our country in 2005 needed natural gas. Now 
some of those plants are actually retooling to export it.
    So there are times where the Congress makes a decision for 
the country and doesn't necessarily get the consent of the 
local States, but we have to have a process that gives them 
time, but I think there is a National imperative we have to 
have some place to put nuclear waste instead of storing it 
where we have it now. Thank you.
    Mr. Shimkus. I agree, I think that is the debate on eminent 
domain, local people have--that someone has to make some 
decision sometimes. I would now recognize my colleague from 
Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you, Mr. Chairman, and thank you 
gentlemen for being here this afternoon and this morning. If I 
could start with Mr. Wright. There were some suggestions made 
to the Commission that instead of using geologic repositories 
or central interim storage facilities, that they should be--
maybe the waste should be held on site and hardened on site 
storage. Do you have any comments on that?
    Mr. Wright. Well, I don't think that is a good idea. You 
know, when you talk about harden on site storage, that is not 
what was mandated by the Nuclear Waster Policy Act nor is that 
what the contracts that all the utilities which own the fuel 
are compelled to enter with DOE.
    There are technical and operational factors that should be 
considered, and this little added benefit to the cost. And it 
is probably well intended the process, but it is a little--I 
don't know, it begs the question and then what, and you miss 
the opportunities, I think, to take advantage of consolidation 
of fuel and the associated economies of scale that come with 
that.
    Mr. Latta. Thank you. Mr. Barrett, what should we expect to 
see out of DOE next if this administration is going to take the 
Commission's recommendation seriously?
    Mr. Barrett. I hope Secretary Chu directs the staff to move 
forward on things that the BRC has recommended, start the 
consensus process, let's see if it is going to work, let's see 
if they bring in a consensus site. We know the issue is not 
with the locals. We know the issue rests in the State capital. 
Santa Fe has not spoken to New Mexico yet. Let's find out, will 
they speak in a reasonable condition. So let's start the 
consolidated storage process. Let's move forward, they can do 
it under existing law, and I hope the Secretary does it very 
soon.
    Mr. Shimkus. Would the gentleman yield for one second?
    WIPP is not high-level waste. We have to make that clear. 
We are making them synonymous, and they are not.
    Mr. Barrett. That is absolutely true. WIPP is only defense 
true waste, is not high-level waste at all, but the people in 
the southeast of New Mexico have aspirations to do that.
    Mr. Latta. Let me ask the other panelists, what should the 
DOE action be that would demonstrate concrete and rapid action 
take up on these recommendations? Anyone?
    Mr. North. I think in the near-term, they can provide the 
staff support for discussion on these issues and we will need a 
good deal of such discussion. But until the money is made 
available to go forward, for example, the planning of the 
packaging and the transportation will be very difficult. The 
problem here is that spent fuel is stored in dry casks and can 
be moved only in very special transporting casks.
    Some of these casks can be designed in such a way to serve 
multiple purposes, but they are very expensive, they are very 
heavy and if you have an accident involving them, you really 
want the State and local authorities to know how to handle 
that. So for WIPP with a much easier transportation problem for 
transuranic waste, this was done over the period of a decade 
with a lot of funding and a lot of cooperation between the 
parties. The process was put on hold for transporting and 
packaging spent nuclear fuel. It needs to be restarted and in 
my judgment it will take at least a decade to get it to where 
we need it for doing the transport wherever it is going to go, 
an interim storage facility or a geologic repository.
    Mr. Latta. Anyone else?
    Mr. Malsch. I would like to add to what Dr. North just said 
that the Commission has recommended a number of actions, that 
could be implemented administratively without legislation to 
deal with the unfortunate status and use of the nuclear waste 
line. I think those things should be considered promptly.
    Mr. Latta. Well, let me ask this to the panelists again 
that, I have sat through a lot of hearings in here with NRC and 
DOE. With the administration's track record right now, do you 
think there will be any stalling or delaying to get this thing 
done? Anyone?
    Mr. Barrett. I hope not. There is a big responsibility that 
they have when they swore their oaths of office to uphold the 
law. I hope that Secretary Chu now that he has the results from 
the BRC which doesn't show any new path forward that we ever 
thought of before, and we have always thought about 
consultation cooperation agreements that he would resume 
licensing and move forward.
    Mr. Latta. Mr. Wright, and I know, Mr. Chairman, my time 
has expired, but he was going to answer, Mr. Wright.
    Mr. Wright. If it is appropriate. You know, it is going to 
take leadership on a number of levels, all across this country 
to get moving, but I think that we need to--we have got to move 
forward with things as simple as providing funds just for the 
completion of the license app, that is a simple thing to do. 
But we also need to take what is in the BRC and look at what we 
can all agree on and move forward on, rather that wait for some 
giant legislative package to come through, because I think the 
bigger the package, it probably is going to move very, very 
slow. So I think we need to be a little bit specific in what 
everybody can agree on and move forward.
    Mr. Latta. Thank you. Mr. Chairman, my time has expired and 
I yield back.
    Mr. Shimkus. The Chair recognizes the gentleman from 
Louisiana for 5 minutes.
    Dr. Cassidy. Mr. Malsch, you may have addressed this 
earlier, I was in a committee hearing earlier, but Chairman 
Shimkus put a thing up there, he asked what is local; and he 
showed how all these surrounding counties in Nevada actually 
favor this project. But, obviously, Senator Reid does not and 
he has effectively used his power to kill it.
    So let me just ask you what is local? Is it the people that 
live next door, in the next county, in the next two counties, 
or is it the Senator that represents.
    Mr. Malsch. Well, I think that--I mean, it obviously 
includes the people that live and work closest to the facility, 
but it also includes the people, as I have stated, as a whole, 
because the facility can impact the State as a whole, not only 
in terms of its own operations but in terms of the 
transportation that is necessary.
    Mr. Cassidy. That is true of the entire country, correct?
    Mr. Malsch. That is true of the entire country.
    Mr. Cassidy. And if you bring this in from Georgia and you 
were to bring it all the way across, assuming it is I-10, you 
are going to affect my State, Louisiana. So again, 
theoretically somebody in India is affected. So do we have a 
workable definition of local more workable than anyone that may 
potentially be affected?
    Mr. Malsch. Well, I think the Commission recommended a 
negotiation process and an iterative consent-based process that 
involves the State, local governments and Indian tribes. I 
think the relationships among those is going to vary.
    Mr. Cassidy. Now, at some point though, one of my favorite 
quotes--I don't mean to interrupt, I only have 3 or 4 minutes 
left--is a Samuel Johnson quote: ``No one likes change, even 
from worse to better.'' Now, I can see it is easy for some well 
funded group to whip up emotional opposition, particularly when 
there are reports that are not being released that may show the 
safety of this project. So I am a little bit kind of concerned 
that as long as there is somebody well funded who wants to show 
pictures of mutant animals that we won't have--so going back to 
my definition, what is local? If it is not the country 
surrounding and the county surrounding the counties which 
surround, indeed what is local?
    Mr. Malsch. Well, I think that has to be worked out on a 
facility-by-facility basis, but I think you have to include 
both the local governments, Indian tribes and the State just as 
a practical matter. As the Commission said here this morning, 
this is not going to be easy, it is going to be very difficult, 
but I really do see it as the only reasonable path forward.
    Mr. Cassidy. Is it a path or is it a dead end? I am asking 
that not rhetorically, but I mean, because you obviously are an 
attorney representing the State of Nevada, you got a position, 
I understand that. At the same time knowing the emotional 
aspect of this, it just seems almost like almost it can't 
happen as long as you define local so broadly.
    Mr. Malsch. Well, I really think we should not be so 
discouraged. I mean, it has worked reasonably well in the case 
of one geologic disposal facility in New Mexico. It worked and 
is apparently working in several foreign countries.
    Mr. Cassidy. And I gather from the earlier testimony that 
it worked there because they have a different structure so the 
central government was better able to impose its will upon a 
State government; is that correct or incorrect?
    Mr. Malsch. I am sorry, are you talking about foreign 
countries?
    Mr. Cassidy. Yes. In Spain, for example, the Federal 
Government can make a decision the province could not object 
sort of thing. Is that correct? I don't know that. I am just 
asking.
    Mr. Malsch. I am not sure that is correct. I would have to 
go back and read the report.
    Mr. Cassidy. Let me go back to--thank you--Mr. Wright. I 
have read Dr. Lyman's testimony so I am familiar with that. 
Going back to the reprocessing question which we had earlier, 
again, if you read AREVA, which I gather Dr. Lyman objects to 
theirs, but I am sure it would be vice versa. But you also said 
that you are not sure that the reprocessing is ready for prime 
time. I ask this not as an advocate but as someone who is 
curious. Why would you not say it is not ready? Do you not 
believe AREVA, but you do believe Dr. Lyman, or you see where I 
am going with that?
    Mr. Wright. I guess to be really clear about it, I mean, 
the technology, it depends on what you are going to be picking, 
what technology you are looking at. You know, are you looking 
at some new generation of technology. So until we kind of 
determine which way we want to go there I believe that is what 
we mean. I don't think--we haven't been--we haven't picked one 
yet or even several to choose from. You know, they are doing--
we used to have the technology and now France has it.
    Mr. Cassidy. But at the French I understand there AREVA has 
even proposed as a private entity to set up a reprocessing 
plant, which obviously logically would be right next to a 
regular nuclear power plant, if you will. They seem to feel 
like they have it. And I know that Dr. Lyman objects to this 
but they claim that they are reducing the amount of waste.
    Mr. Wright. Well, there is no question it would probably 
reduce the amount of waste and probably what would be left if 
you did it in a way that you took care of the proliferation 
issues, the half lives would be less, you have less waste. I 
mean, that is just common sense that would tell you that would 
probably be the case. How much that reduces I don't know. But 
DOE was looking and exploring something a number of years ago 
with the GNEP program. And they went around to places, 
including one in South Carolina, around Akin, where we had a 
big meeting, a willing host site. But it was a willing host 
site for the fabrication of the fuel and also for a reactor, 
and then as long as it was an approved pathway out to a 
geological repository with the waste that was left. Because no 
matter what you do in a commercial back end of the cycle you 
are going to have waste. That stands alone from the defense 
waste which is not a candidate for reprocessing. And we are 
going to have defense waste no matter what. We got to put that 
somewhere.
    Mr. Cassidy. Thank you. I yield back.
    Mr. Shimkus. Dr. North, I was curious, you were looking at 
this book and it looked like you wanted to comment.
    Mr. North. Yes. I was going to say the National Academy of 
Sciences did an exhaustive study on separation and reprocessing 
in 1996. My committee, the 2001 National Academy Report, looked 
at this issue, and we had access to the same staff who had done 
the investigations earlier. So the BRC cited in an end note our 
committee's report in this area. The problem is the geologists 
became too good at finding high grade uranium ore. So using 
plutonium and mixed fuel is too expensive. It is an economic 
issue. But several hundred to let's say 1,000 years from now we 
may have depleted all the high grade uranium ore. And at that 
point being able to retrieve spent nuclear fuel and reprocess 
it then may be economically very important. And the fission 
products will have died way down and so less radioactivity, it 
will be easier to do it.
    So I think there is a very strong argument for 
retrievability. Even if reprocessing isn't economic now, it may 
become so in the future. And ask the French and the British and 
maybe the Japanese about the economics of their present process 
and I think they will tell you that it is a problem.
    Mr. Shimkus. Thank you. That is very, very helpful. We are 
going to end here. Instead of just placing this in the record I 
just want to reiterate a couple things. On the House vote to 
override the Nevada disapproval in May 2002, that vote was 306 
to 117. As I said before, the override was a voice vote in the 
U.S. Senate, which I found amazing. I also want to put the 
report language out of the House, just highlighting Congress is 
both of us but there are two chambers. In the report language 
for the House to pay for the BRC study, I quote, therefore, the 
committee makes the $5 million for the Blue Ribbon Commission 
available provided that Yucca Mountain is considered in the 
review. That was pulled out by the Senate. We are just again 
addressing the facts. Finally, we did have an appropriation 
vote to fund the scientific study co-authored by my colleague 
from Washington State. That vote on the floor was 306 to 117.
    The House has spoken numerous times that it is the will of 
the House that we move forward on Yucca Mountain, and we hope 
that we can get there some day in the near future. With that, I 
do appreciate your time, I look forward to working with you in 
the future, and with that I will adjourn the hearing.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
